<html>
<title> - STABILIZATION AND RECONSTRUCTION: BUILDING PEACE IN A HOSTILE ENVIRONMENT</title>
<body><pre>[Senate Hearing 109-236]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-236
 
     STABILIZATION AND RECONSTRUCTION: BUILDING PEACE IN A HOSTILE 
                              ENVIRONMENT

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             FIRST SESSION



                               __________

                             JUNE 16, 2005

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
25-574                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................    44
Henry, Hon. Ryan, Principal Deputy, Office of the Under Secretary 
  of Defense for Policy, Department of Defense, Washington, DC...    12
    Prepared statement...........................................    14
    Response to question submitted for the record by Senator 
      Lugar......................................................    45
Kunder, Hon. James R., Assistant Administrator for Asia and the 
  Near East, USAID, Washington, DC...............................    18
    Prepared statement...........................................    21
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Pascual, Hon. Carlos, Ambassador, Coordinator for the Office of 
  Reconstruction and Stabilization, Department of State, 
  Washington, DC.................................................     3
    Prepared statement...........................................     7
Sharp, LTG Walter, Director, Strategic Plans and Policy, Joint 
  Staff, Department of Defense, Washington, DC...................    16
    .............................................................
    Responses to questions submitted for the record by Senator 
      Lugar......................................................    45

                                 (iii)

  


     STABILIZATION AND RECONSTRUCTION: BUILDING PEACE IN A HOSTILE 
                              ENVIRONMENT

                              ----------                              


                        THURSDAY, JUNE 16, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard 
Lugar, chairman of the committee, presiding.
    Present: Senators Lugar and Chafee.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. The committee meets today to 
continue our examination of how the United States can improve 
its capacity to undertake stabilization and reconstruction 
missions abroad.
    Over the years, we have observed our Government cobble 
together plans, people, and projects to respond to post-
conflict situations in the Balkans, in Afghanistan, in Iraq, 
and elsewhere. The efforts of those engaged have been valiant, 
but these emergencies have been complex and time sensitive.
    Our ad hoc approach has been inadequate to deliver the 
necessary capabilities to deal speedily and efficiently with 
complex emergencies. In an age of terrorism, it is especially 
important we be prepared to undertake these missions, because 
we have seen how terrorists can exploit nations afflicted by 
lawlessness and desperate circumstances. They seek out such 
places to establish training camps, recruit new members, and 
tap into a global black market in weapons technology.
    In 2003, this committee organized a distinguished Policy 
Advisory Group made up of U.S. Government officials and outside 
experts to give members advice on how to strengthen our ability 
to plan and to implement these post-conflict missions. After 
much study, it was clear that we needed a well-organized and 
strongly led civilian partner to work with the military in 
complex emergencies. And it was our judgment that the State 
Department was best positioned to lead this effort.
    As a result of our deliberations, I introduced, with 
Senators Biden and Hagel, the Stabilization and Reconstruction 
Civilian Management Act of 2004, and this committee passed it 
unanimously. That bill is included, with some modifications, as 
title VII in Senate bill 600, the Foreign Relations 
Authorization Act of 2006 and 2007, which is now on the Senate 
Calendar.
    The bill puts the State Department at the center of the 
civilian reconstruction and stabilization effort, while 
coordination between State and Defense would continue at the 
NSC level. The executive branch already has moved to implement 
elements of our bill. Indeed, an Office of Reconstruction and 
Stabilization was organized at the State Department last July. 
The new Office is conducting a governmentwide inventory of the 
civilian assets that might be available for stabilization and 
reconstruction tasks.
    It is also pursuing an idea, proposed in our bill, of a 
rapid response corps to greatly reduce the time required to 
mobilize post-conflict stabilization personnel. It will work 
closely with the Secretary of State to assist in the 
coordination of policy and in developing cooperative 
arrangements with foreign countries and nongovernmental 
organizations.
    President Bush said last month that this new State 
Department Office would be dedicated to, quote ``helping the 
world's newest democracies make the transition to peace, 
freedom, and a market economy,'' end of quote from the 
President.
    I am hopeful that the Office will develop the concept of a 
250-person active duty corps that is contained in the 
legislation we presented. In Army terms, that is less than a 
small battalion of well-trained people--a modest but vigorous 
force multiplier that would greatly improve our Nation's 
stabilization capacity.
    This corps of civilians could be composed of State 
Department and USAID employees as well as former military 
personnel who have the experience and the technical skills to 
manage stabilization and reconstruction tasks in a hostile 
environment.
    At her confirmation hearings earlier this year, Secretary 
Rice expressed enthusiastic support for enhancing standing 
civilian capacity to respond to post-conflict situations. In 
answer to one of my questions, she said, and I quote, 
``Creating a strong U.S. Government stabilization and 
reconstruction capacity is an administration national security 
priority,'' end of quote from the Secretary.
    She asserted that, quote ``experience has shown that we 
must have the capacity to manage two to three stabilization and 
reconstruction operations concurrently. That means [we need] 
staff in Washington and in the field to manage and deliver 
quality programs,'' end of quote.
    Secretary Rice is working to make the State Department an 
effective interagency leader in post-conflict operations. I 
consider this new mission to be one of the most important long-
term defenses that the State Department can mount against 
future acts of terrorism.
    We are pleased today to welcome a panel of experienced and 
distinguished witnesses. Ambassador Carlos Pascual is 
testifying before the committee for the first time in his new 
job as State Department Coordinator for Reconstruction and 
Development. He has stayed in close contact with our committee 
during his tenure, and we appreciate his willingness to 
exchange ideas and to brief us on plans.
    Mr. James Kunder is USAID's Assistant Administrator for 
Asia and the Near East. In addition to his work at USAID, he 
was a valuable participant in the committee's Policy Advisory 
Group process, which examined stabilization and reconstruction 
issues 2 years ago.
    Also joining us are Mr. Ryan Henry, the Deputy Under 
Secretary of Defense for Policy, and LTG Walter Sharp, Director 
of Strategic Plans and Policy for the Joint Staff. Any 
discussion of how we should organize the building of peace in a 
hostile environment must take strong account of Defense 
Department expertise and insight. We are grateful to all of our 
witnesses for coming this morning, and we look forward to an 
important discussion.
    If Senator Biden arrives, I will call upon him for an 
opening statement if he wishes to present one. And we will call 
upon each of the witnesses for their statements, which we will 
hear in full before commencing questions from the panel of 
Senators, who I hope will join me during the course of our 
hearing.
    Let me mention that the statements should be in this order. 
First of all, Ambassador Pascual, and then second, Mr. Henry, 
and then third, General Sharp, who I understand has verbal 
remarks, no written message--but, nevertheless, we welcome his 
comments in any form--and then Mr. Kunder.
    Let me just say at the outset that all of the prepared 
statements will be placed in the record in full, so you need 
not ask permission for that to occur. It will.
    And you may proceed in any way you wish to summarize, but 
do not truncate unduly. This is a panel that is meant to be 
heard, not simply to be questioned, because the information 
that you impart, not only to Senators, but through this hearing 
to the general public, is very much welcome.
    I call now upon my friend, Ambassador Pascual, with whom I 
have enjoyed wonderful association during his tenure in the 
Ukraine and in various other places. And we thank you for your 
taking on these new responsibilities.
    Ambassador.

 STATEMENT OF HON. CARLOS PASCUAL, AMBASSADOR, COORDINATOR FOR 
 THE OFFICE OF RECONSTRUCTION AND STABILIZATION, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador Pascual. Mr. Chairman, thank you very much. I 
appreciate very much having this opportunity to address you 
this morning to discuss what I consider to be one of the 
greatest national security challenges of our time, the 
management of conflict.
    I would like to thank you, Mr. Chairman, and Senator Biden 
and the members of the appropriations committees in the House 
and the Senate for the $7.7 million in funding that the Office 
of the Coordinator for Reconstruction and Stabilization 
received in the fiscal year 2005 emergency supplemental. And 
your efforts in that were absolutely crucial in securing that 
funding for us. Thank you.
    These funds are really essential to build our core 
functions, and they are going to be put to use immediately for 
some of our projects in Sudan. I am very pleased to be here 
today with Under Secretary Ryan Henry, with General Skip Sharp, 
with assistant administrator Jim Kunder.
    Managing conflict is too great a challenge and too complex 
a task for one office alone. It must be a joint effort 
coordinated across our Government. And seated here with me, Mr. 
Chairman, are three of our key partners.
    As this committee has recognized, the management of 
conflict requires a paradigm shift in the way we think about 
international relations.
    The 20th century's premise that the struggle between strong 
powers principally threatens security and stability, and that 
international security is driven by rational actors 
scrutinizing one another was turned on its head on September 
11.
    On that morning, we saw one of the poorest countries in the 
world become the base of operations for the deadliest external 
strike the United States has faced in its history. It made us 
fundamentally reexamine our assumptions about national 
security.
    One constant in this world is that voids will be filled. In 
the absence of legitimate governance, those voids will be 
filled with terrorism, organized crime, weapons proliferation, 
trafficking, and other threats to our national interest.
    There is no moment of greater challenge and risk than when 
countries emerge from conflict or civil strife. It simply is 
not enough, as you said, Mr. Chairman, to rely on ad-hoc 
responses.
    We have no choice but to adapt and develop new tools to 
meet the challenges of today. It was in this context that the 
Office of the Coordinator for Reconstruction and Stabilization 
was created last year.
    We have been charged with creating a joint operations 
capability within the U.S. Government to prevent or prepare for 
conflict. This truly has been a bipartisan governmentwide 
initiative.
    I would like to thank Chairman Lugar and Senator Biden for 
your leadership on this issue. It has provided a foundation on 
which we have been able to build. You and your staff have been 
stalwart proponents, of building stronger stabilization and 
reconstruction capabilities. The administration appreciates 
your commitment and your leadership on these issues.
    In the executive branch, S/CRS has been fortunate to 
receive tremendous support from the President, Secretary Rice, 
as you very adequately and appropriately quoted, and Dr. 
Hadley. We have received resounding support from national 
security principals and from our colleagues in the combatant 
commands.
    In April 2004, the National Security Council approved the 
creation of the Office of the Coordinator for Reconstruction 
and Stabilization. In December, we went back to update them on 
our progress, and they unanimously reaffirmed their support for
S/CRS, and approved the direction in which our operating models 
have developed.
    S/CRS is a unique office. It is a State Department Office 
with interagency responsibilities. Responding to conflict with 
unity of effort is broader than the mandate of any one agency.
    This mission can require peacekeeping, coordination with 
military operations, peace negotiations, political 
transformation, civilian police functions, support for the rule 
of law, and economic and humanitarian assistance. In light of 
the breadth of agency responsibilities, we must focus on 
ensuring a common U.S. Government voice and not a collection of 
individual agency responses.
    The State Department is charged with implementing the 
President's foreign policy agenda in coordination with the NSC. 
And as such, NSC principals unanimously agreed with the 
recommendations that this committee has put forward to 
establish S/CRS in the State Department.
    Our mandate must consider the full spectrum of conflict. 
Sustainable peace requires more than stabilization. We need to 
help people take ownership of the transition, so that they can 
change the very fabric of their societies and redefine 
governing structures that foster freedom, inclusiveness, and 
reconciliation. It requires uprooting the ills that led to 
conflict in the first place. These are complicated tasks and we 
cannot succeed if our only means of responding is crisis.
    We need to understand how we can prevent conflict, or if 
that is not impossible, we must be able to prepare in advance 
to respond more effectively.
    We are improving our early warning capabilities and linking 
early warning to early response. We are developing better 
planning capabilities, such as a common template for civilian 
agencies in the military for stabilization and reconstruction 
planning.
    We are developing more effective tools for coordination of 
a crisis response in Washington and in the field. We are 
putting in place mechanisms to facilitate communication between 
first responders and policymakers so that decisionmakers 
receive grounded truth and timely information, and so those on 
the front lines receive guidance on priorities and objectives.
    To build these capabilities, the administration has 
requested $124.1 million in the fiscal year 2006 budget. This 
includes $24.1 million to support core office functions, 
training, and exercises. The Department's full personnel 
request would support initial development of an active response 
corps within the Department.
    The administration is requesting $100 million for a 
conflict response fund, which would serve as a flexible account 
to quickly channel resources into programs, thereby speeding 
response and impact.
    This will also give us time within the administration and 
Congress to identify longer term funding. I want to stress, Mr. 
Chairman, my commitment to work closely with Congress and this 
committee on the use of this fund.
    In addition, the administration is seeking a transfer 
authority, which my colleagues from the Department of Defense 
will further describe, that would be subject to determinations 
by the Secretaries of State and Defense and would allow the 
State Department to draw down up to $200 million for 
stabilization and reconstruction activities from the Department 
of Defense budget.
    These resources are fundamental to achieving impact on the 
ground. The sooner we can get programs started that allow 
people to see conditions improve for their families and 
country, the better the chance we have of helping a country get 
on the right trajectory to stability and peace.
    The legislative effort launched by this committee has 
galvanized support and attention. Your legislation is very much 
in line with the administration's efforts, as you have just 
outlined, Mr. Chairman.
    We fully support your initiative to authorize a conflict 
response fund with flexible authorities, so it can be used 
rapidly and to authorize additional personnel management 
flexibility.
    The chairman and Senator Biden's proposals call for a 
response corps from State and USAID, as well as a response 
readiness reserve. We, indeed, must develop the capacity to 
manage crisis response as well as to deploy to the field.
    The operating concepts we propose will allow for improved 
central Washington management through staffing of my Office, 
the Coordinator for Reconstruction and Stabilization. They 
provide for a rapid diplomatic response capability through an 
active response corps and a standby corps that can back up 
first responders.
    We are developing ways to strengthen existing contract 
response mechanisms. We will fill gaps by creating what we have 
called a Global Skills Network that draws on NGO, private 
sector, think tank, and university capabilities. An operational 
database will catalog U.S. Government capabilities.
    Looking to the longer term, we are working with Joint 
Forces Command on a study to assess the cost effectiveness of 
reserve models that will result in alternatives that we will 
discuss with this committee and we will seek your views.
    The skills and resources we are requesting are not just 
investments for the future. They are needed right now, most 
urgently in Sudan.
    In close coordination with the NSC, the Department's Africa 
Bureau, USAID, and the Department of Defense, we are pulling 
together a unified U.S. Government strategy for Sudan, and the 
implementation of a Comprehensive Peace Agreement, as well as 
advancing peace in Darfur and to bring that conflict to an end.
    We are working with the Western Hemisphere Affairs Bureau 
on Cuba to develop a framework for United States strategy for 
the immediate period after Fidel Castro's death. We have been 
working with the Department's Africa Bureau on conflict 
prevention and mitigation strategies in the Democratic Republic 
of Congo.
    Just a month ago, we cohosted a policy exercise that pulled 
together the interagency community and international 
participants from the European Union, the United Nations, and 
other partners to strengthen planning for the DRC's upcoming 
election.
    If we can better coordinate U.S. resources and can better 
leverage the capabilities of the international community, the 
private sector, and nongovernmental organizations, we stand a 
better chance of effecting the dynamics on the ground and ever 
critical transitions after a conflict.
    To put this into perspective, in the case of Iraq, by 
changing the dynamics enough to allow us to just withdraw one 
division 1 month earlier, we would be able to save $1.2 
billion. We save hundreds of millions by allowing peacekeepers 
to end operations sooner if we can get on the ground more 
quickly and more effectively.
    Funding the types of initiatives S/CRS is developing is not 
only an investment in peace and democracy, it saves money. Even 
more importantly, it saves lives by removing our troops from 
harm's way. We owe it to our troops, to the American people, to 
our national prestige, to those around the world who struggle 
to emerge from conflict, to improve our capabilities.
    We appreciate the resources you are providing through the 
supplemental, and we hope that you will continue to support our 
efforts. Thank you for your attention and I will be happy to 
answer your questions.
    [The prepared statement of Ambassador Pascual follows:]

 Prepared Statement of Ambassador Carlos Pascual, Coordinator for the 
   Office of Reconstruction and Stabilization, Department of State, 
                             Washington, DC

                              INTRODUCTION

    Mr. Chairman and members of the committee, I appreciate the 
opportunity to testify today to share with you our progress and to 
support the President's FY 2006 budget request for the Department of 
State and to discuss with you the elements related to stabilization and 
reconstruction. I am particularly pleased to be here so I can thank 
you, Chairman Lugar and Senator Biden, for your leadership on this 
issue. I'd also like to recognize the support from Chairman Dreier and 
Congressman Farr who have supported the development of this Office.
    Over the past 15 years, the United States has been involved in 17 
significant stabilization and reconstruction operations. Since the cold 
war there have been 41 stabilization and reconstruction programs that 
have been carried out internationally. This isn't just an engagement 
like Iraq or Afghanistan. It's also an issue of Haiti and Mozambique 
and Somalia and Bosnia and Kosovo and Cote d'Ivoire and Liberia and 
Sierra Leone and East Timor and Nicaragua, and the list goes on.
    The task of dealing with and managing conflict, as well as 
addressing post-conflict responses, has become a mainstream part of our 
foreign policy challenges today. The question before us now is whether 
we should improve the way we organize ourselves to address foreign 
policy challenges head on, or continue the ad-hoc approach that has 
characterized our efforts in the past. The administration and many 
others agree that a more coherent approach would allow us to achieve 
the kinds of results that support our national interests, that help 
save lives and that are consistent with American values.
    If we do not address this challenge, the costs are also clear. 
Failed or failing states become voids that will be filled with 
terrorism, with trade in narcotics, trafficking in people, and with 
other illegal activities that in the end, inevitably, become a threat 
to our national interests. The countries where al-Qaida had established 
its base were Somalia, Sudan, and Afghanistan; it is not a coincidence 
that they were failed states, where there was a void, where those with 
some money who could influence leaders could establish a base of 
illegal operations. What we face today is a question of how we stand up 
to this national security challenge.

                           CREATION OF S/CRS

    It was in that context that administration created the Office of 
the Coordinator for Reconstruction and Stabilization (S/CRS), 
specifically with the mandate to lead, coordinate, and institutionalize 
U.S. Government civilian capacity to prevent or prepare for post-
conflict situations, and to help stabilize and reconstruct societies in 
transition from conflict or civil strife, so they can reach a 
sustainable path toward peace, democracy, and a market economy. This 
mission statement has several key elements.
    First, we are focusing on prevention of conflict, where we can, 
because the costs of prevention are always less than intervention.
    Second, we stress the word ``institutionalize'' in the development 
of U.S. Government capacity, so we can learn from prior experiences and 
not respond in an ad-hoc way to each new crisis.
    Third, if we must respond to conflict, we need to have the goal of 
putting that country on a path toward being a sustainable and peaceful 
democracy and market-oriented state. We must place such a goal at the 
forefront of our planning and engagement. It is much more difficult to 
get onto the correct vector 6 months or a year and a half down the road 
than it is at the beginning. So those choices that we make at the 
outset are absolutely crucial.
    Before I describe the plans for our Office in greater detail, let 
me first outline a few important assumptions. We are working on the 
basis that we need to have the capacity to concurrently manage two to 
three stabilization and reconstruction operations at the same time. As 
I mentioned earlier, history and experience since the end of the cold 
war have taught us this is the case.
    Further, for stabilization and reconstruction operations to 
succeed, they generally require a longer term involvement, usually on 
the order of 5 to 10 years. It requires effective long-term management 
through regular institutional mechanisms, but as part of a cohesive USG 
strategy. The S/CRS coordination role will cease as normal state and 
civilian operations take hold. Therefore if an agency is going to be 
working on a program in year seven, they must be involved in the design 
from the beginning to ensure program continuity and accountability.
    Post-conflict reconstruction and stabilization cannot be the effort 
of just one office. Our Government cannot undertake a responsibility 
which is so broad and so deep, that covers so many different potential 
countries over so many years, without recognizing there must be a 
centralized office that leads, coordinates, and is a center point for 
joint operations.
    However, this central point cannot be a substitute for those other 
successful capabilities that already exist throughout the Government. 
Therefore, one of the goals for our Office is to make recommendations 
within the policy and budget development processes as appropriate to 
support the capabilities required across the USG--to meet 
reconstruction and stabilization challenges. Another requirement is to 
engage with the military, international partners, and nongovernmental 
organizations, and the private sector to develop their capacities and 
to coordinate with them in planning operations.

                            STATUS OF OFFICE

    S/CRS was mandated by a decision taken by National Security Council 
Principals in April 2004. The Office was established in July 2004. 
Eight positions and $536,000 were reprogrammed in FY 2004 with 
congressional support. The FY 2005 supplemental request included 
funding for S/CRS to continue building this capability in advance of 
the FY 2006 budget request. With the support of this committee, 
especially Chairman Lugar and Senator Biden, as well as the support of 
many members including, Chairman Cochran, Chairman McConnell, Senator 
Leahy, Chairman Wolf, and Congressman Farr, we received $7.7 million in 
the enacted FY 2005 supplemental. This funding will allow us to provide 
reconstruction and stabilization management support for Sudan including 
coordinating the United States efforts underway to implement the Sudan 
peace agreement and assistance to Darfur. This funding, however, will 
not be sufficient to solidify the Office's staffing or provide for a 
civilian rapid response capacity.
    Using nonreimbursable details, we have 35 staff in what is an 
interagency office in the State Department. We have staff from the 
State Department, USAID, the Office of the Secretary of Defense, the 
Joint Chiefs, Joint Forces Command, the Corps of Engineers, Department 
of the Treasury, and the Intelligence Community. This has been 
essential to create a capability that not only provides a range of 
skills, but gives us the capacity to reach back to individual agencies 
for support.
    We have established a Policy Coordinating Committee on 
stabilization and reconstruction. We have eight interagency working 
groups that have been created to address: Transitional security; rule 
of law; democracy and governance; infrastructure; economic and social 
well-being; humanitarian issues; management; and monitoring and 
resources.
    We have established extremely strong connections with our 
colleagues in the military, especially with Regional Commanders. There 
has been no greater supporter of the concept of developing a strong 
civilian stabilization and reconstruction capability than our uniformed 
military. What we have heard at every single combatant command is that 
soldiers have been increasingly pushed to take up responsibilities that 
they were not trained to do. The military wants to work with us so that 
civilians can deploy with them to undertake civilian activities, 
allowing our Armed Forces to concentrate on those activities for which 
they should be responsible. We need to have a partnership--a 
partnership in planning that begins at the outset and is interlinked 
all the way through training, exercises, and finally the process of 
stabilization and reconstruction.
    From this modest base, the task that we face is to institutionalize 
an even broader and stronger capability in our Government, so that we 
really address conflict management and conflict responses as a national 
security priority. This will require dedicated management resources and 
new models of operations that must be built and supported. This is what 
our budget request supports.

                           FUNCTIONS OF S/CRS

S/CRS will pursue five core functions:

  <bullet> Monitor and Plan: Identify states and regions of greatest 
        risk and importance, and lead U.S. planning focused on these 
        priorities to avert crises, when possible, to prepare for them 
        as necessary. Integrate planning and exercises with the 
        military.
  <bullet> Prepare Skills and Resources: Establish and manage an 
        interagency capability to deploy personnel and resources in an 
        immediate surge response and the capacity to sustain assistance 
        until traditional support mechanisms can operate effectively. 
        Civilian response corps and standby civilian capabilities will 
        be developed.
  <bullet> Mobilize and Deploy: Coordinate the deployment of U.S. 
        resources and implementation of programs in cooperation with 
        international and local partners to accelerate transitions from 
        conflict to peace.
  <bullet> Leverage International Resources: Work with international 
        organizations, international financial institutions, individual 
        states, and NGOs to harmonize approaches, coordinate planning, 
        accelerate deployment of assets, and increase the 
        interoperability of personnel and equipment in multilateral 
        operations.
  <bullet> Learn from Experience: Incorporate best practices and 
        lessons learned into functional changes in training, planning, 
        exercises, and operational capabilities that support improved 
        performance.

    In undertaking these functions, S/CRS will not duplicate missions 
of USAID or other implementing agencies. However, resources are 
required to fill critical management gaps; necessary functions that are 
not currently being performed.

                             BUDGET REQUEST

    The President is seeking funding in the FY 2006 budget request to 
establish the Office and begin to prepare the capacities we need to 
respond to conflict in a comprehensive, integrated, and effective way. 
The FY 2006 budget includes $24.1 million in State Operations funds for 
S/CRS operations and to support the creation of an Active Response 
Corps in the Department of State. The FY 2006 request also includes 
$100 million in a Conflict Response Fund that will allow the State 
Department to rapidly initiate programs in failed or failing states 
when the window of opportunity is open widest and while longer term 
funding sources are identified.
    This first phase request focuses on building core leadership, 
coordination, and response capabilities in the Department of State and 
providing baseline funding to support rapid field responses essential 
to creating positive dynamics for successful R&S operations.
    As we learn lessons from this phase on operational requirements and 
resource needs, we will factor these lessons into redefining our 
operational models and future requests to make them effective. We will 
consult with the Congress throughout this process.

                    PERSONNEL RESOURCES REQUIREMENTS

    We have learned the importance of having an effective capacity to 
mobilize and deploy in both Washington and overseas and have the people 
that are necessary to be able to do that. It takes training, planning, 
exercises, and effective mechanisms for deployment. In the model that 
we propose, we have analyzed the capabilities that we need inside of 
the Government, the capabilities that we need in our external partners, 
and the resources that are necessary to make this all work and operate 
together. While we will utilize the skills and resources of existing 
programs and personnel to plan and respond, there are additional 
resources needed to make those work effectively and to speed response 
efforts.

<bullet> Washington Management--S/CRS Staff: To lead and coordinate USG 
        efforts requires a dedicated core staff. S/CRS will play this 
        role and act as a force multiplier. S/CRS will facilitate the 
        planning and the monitoring process; coordinate the management 
        in Washington and create a capacity for coordination in the 
        field; take the leadership role in outreach to the 
        international community; develop an institutional memory by 
        extracting lessons learned and injecting that back into our 
        operations.

This staff would have the following specific ongoing responsibilities:

  <bullet> Build and maintain skills and capabilities necessary for 
        rapid response.
  <bullet> Develop and manage a response corps.
  <bullet> Develop deployment capabilities and rosters.
  <bullet> Develop deployment mechanisms with the military.
  <bullet> Develop and lead the interagency processes for planning and 
        response.
  <bullet> Develop templates for response efforts, processes, metrics, 
        and reporting.
  <bullet> Lead the interagency process to monitoring instability--
        focus attention on risks of instability.
  <bullet> Manage planning, exercises, and relationships with the 
        military.
  <bullet> Develop and oversee programs for training of specific 
        skills.
  <bullet> Create and maintain a lessons-learned capacity--
        systematically institutionalize lessons in our operations.
  <bullet> Lead crisis prevention exercises.
  <bullet> Manage resources through tracking, reporting, and financial 
        controls.
  <bullet> Serve as a focal point within the U.S. Government to engage 
        other countries and international organizations on 
        stabilization and reconstruction.

During management of a conflict response S/CRS staff would:

  <bullet> Establish an interagency management group with regional and 
        functional skills to provide leadership and integration of 
        effort.
  <bullet> Develop the strategic framework for response.
  <bullet> Synchronize and integrate interagency efforts.
  <bullet> Monitor and report.
  <bullet> Form the core of teams deployed to the field to help develop 
        the overall strategy.
  <bullet> Deploy to bolster planning capacity at Regional Combatant 
        Command.
  <bullet> Deploy with military.
  <bullet> Lead initial assessments in the field and support the 
        embassy, if one is in place.
  <bullet> Manage surge from State and other agencies and private 
        sector.

    Our budget request supports 54 positions for S/CRS. To add 
additional needed capabilities we would continue to have detailees from 
other agencies with a goal of 80 people total. This is a fairly modest-
sized staff considering the requirements.

<bullet> Active Response Corps (ARC): The Department needs the 
        capability to quickly establish or increase a diplomatic 
        presence on the ground.

    The FY 2006 budget request proposes to develop a corps of 100 
people within the State Department, both Foreign and Civil Service 
employees with a mix of skills--political, economic, diplomatic 
security, administrative, law enforcement--so we can increase the 
presence in an embassy that has been drawn down, or establish a 
diplomatic operation, by turning to a pretrained group of people. This 
pre-identified group of people would first participate in a training 
and exercise program. They would then be placed in jobs in regional and 
functional bureaus but with the understanding that if a team for first-
responders and deployments is required, the ARC would be the team that 
you could turn to. Graduates will form a cadre of standby capabilities 
within the Department.

Ongoing Responsibilities of ARC members:

--From Management Bureaus, to:

    <bullet> Develop and manage reserves.
    <bullet> Develop new management platforms for interoperability and 
            deployment support.
    <bullet> Provide emergency field support.

--From Regional Bureaus, to:

    <bullet> Identify and monitor countries at risk of instability.
    <bullet> Engage in conflict prevention strategies.
    <bullet> Provide crisis response surge capacity for backstopping.

--From Functional Bureaus, to:

    <bullet> Engage in coordinating development of peace building 
            capacity.
    <bullet> Leverage international engagement.
    <bullet> Facilitate civil-military coordination on broad issues.

During an operation, members of the ARC would be:

  <bullet> First responders:

    --Deploying when the State Department must establish a transitional 
            or post-conflict ground operation, such as an interim 
            embassy or U.S. office.

  <bullet>Diplomats:

    --Tying assistance to overall foreign policy objectives.
    --Engaging with local leaders.
    --Assessing needs and making recommendations.
    --Coordinating with the international community on policy and 
            strategy.
    --Managing the influx of technical personnel.

  <bullet> Surge Capacity to rapidly fill gaps, such as:

    --Staffing the Washington management team.
    --Participating in the planning group at military command.
    --Deploying with the military into the field.
    --Serving as the liaison with international organizations and NGOs 
            on the ground.
    --Advising on transitional economic policies.

    I encourage the Congress to fully support the requested personnel 
resources that will enable us to identify people from within the 
Department to start developing this cadre of employees.

<bullet> Technical Corps: We will also need to, in the future, develop 
        an additional cadre of technical specialists outside of the 
        Department of State we could quickly tap and put in the field, 
        specialists who could design an activity and be available to 
        actually then oversee and supervise that activity over time.

                  PROGRAM DELIVERY RESOURCES REQUIRED

    In addition to having the people that are necessary to manage and 
monitor and ensure that there is an effective response, there is a 
requirement to mobilize and deploy quickly. Our planning efforts will 
synchronize key programs through a range of government mechanisms and 
in partnership with international actors. However, we need to have both 
rapid mechanisms for initiating programs as well as rapidly deployable 
people to perform the technical assistance and other services on the 
ground. We need to have sufficient prepositioned global funding 
mechanisms (such as indefinite quantity contracts) in a range of key 
areas such as transitional security, the rule of law, infrastructure, 
humanitarian transition, economics, governance and participation, so we 
do not have to start the contracting process and the competition during 
a crisis, delaying our response. In cases where it is particularly 
important to have a common doctrine and common training, we need to do 
that in advance.
    In order to do that, we must have resources to make sure that those 
mechanisms are in place with firms, with individuals, with NGOs, with 
think-thanks, with universities and resources to train individuals as 
necessary. We have also begun analysis of whether it would make sense 
to have something in the civilian world that is akin to the military 
reserve which could include different skills that might extend the base 
of constabulary police, judges, civil administrators, city planners, 
economists, and other skills. We will assess whether it's more cost 
effective to obtain those skills through a reserve or through a 
contract or other roster mechanism.
    To be able to mobilize such resources quickly, we have proposed a 
$100 million Conflict Response Fund that will support initial program 
activities in a crisis situation to provide the administration with an 
immediate source of funding to respond to a crisis and to provide the 
administration and the Congress additional time to address longer term 
requirements.
    To use the fund, the Secretary of State would need to determine 
that a post-conflict response is in our national interest, consulting 
with the Congress and sending notifications when resources from the 
fund are required. Such an account would fund programs that promote 
stability, advance the rule of law, facilitate transitional governance 
and political legitimacy, and address immediate social and economic 
needs. These programs' funds would normally be spent in the course of a 
post-conflict response. The difference in making them available quickly 
is that they would:

--Influence the dynamic and viability of post-conflict operations.
--Maximize impact of USG interagency instruments.
--Leverage matching international responses.
--Allows time to seek other funding mechanisms for long-term through 
    regular budget processes.

                      LEGISLATION AND AUTHORITIES

    We have first looked at what we can do now with existing 
authorities and mechanisms and then reviewed what additional 
authorities and mechanisms would not be helpful. The administration's 
Foreign Relations Authorization Act request for fiscal years 2006 and 
2007 contains authorities required to provide this flexibility and we 
hope the Congress acts favorably on our request. We look forward to 
working with the Congress toward enactment of legislation that meets 
the administration's needs.
    We need very much the personnel flexibilities requested by the 
administration so that we have additional tools for hiring people under 
a variety of mechanisms for temporary or quick response work as well as 
flexible authorities requested for the Conflict Response Fund contained 
within the FY 2006 budget request.

                               CONCLUSION

    We have incorporated lessons learned from a range of post conflict 
operations into the development of our Office. What we have learned is 
that there is a need for management resources and authority to lead a 
coordinated response. From the military we have taken the lesson of 
joint operations, planning, exercises, and a capacity to coordinate 
them all. By having key staff identified in advance, able to play these 
management roles, able to plan, to exercise, to train, to put in place 
the kind of advance mechanisms that I have discussed and, with some 
resources, actually get them into the field quickly, we can save lives, 
save money, and advance our international prestige.
    To give you an example, consider the $124 million that is called 
for in the FY 2006 request. If we are able as a result of getting into 
the field more quickly, at a critical moment, and to affect the 
dynamics in the course of a stabilization operation, and as a result 
take just one Army division out of the field 1 month earlier, we would 
save the taxpayers $1.2 billion, according to the Pentagon. If we can 
end an international peacekeeping operation 6 months earlier, net 
savings could amount to hundreds of millions, depending on the size and 
nature of that peacekeeping operation. Not only is investment in the S/
CRS initiative a necessary thing to do from a policy perspective, it 
will, in the end, save us money and quite possibly lives.
    Thank you for allowing me to explain this key initiative in the 
President's FY 2006 budget request for the Department of State. I 
welcome the opportunity to answer your questions.

    The Chairman. Thank you, Ambassador Pascual.
    The Chairman. I call now upon Mr. Henry for his testimony.

 STATEMENT OF THE HON. RYAN HENRY, PRINCIPAL DEPUTY, OFFICE OF 
 THE UNDER SECRETARY OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF 
                    DEFENSE, WASHINGTON, DC

    Mr. Henry. Thank you, Mr. Chairman. I am pleased to appear 
before you and your committee today with Ambassador Pascual, 
and my colleagues from both the Joint Staff and the U.S. Agency 
for International Development. And I have submitted a statement 
for the record, and would like to take you up on your offer to 
summarize some key points.
    The Department of Defense strongly supports the Office of 
the Coordinator for Reconstruction and Stabilization within the 
State Department and its mission to mobilize capabilities for 
stabilization and reconstruction for operations abroad.
    As our National Defense Strategy and National Military 
Strategy make clear, some of the most significant threats to 
our national interests in the early 21st century will stem from 
instabilities, extremism, terrorism, and criminality that is 
generated within weak states.
    The experiences of Afghanistan and Iraq, of Liberia and 
Haiti, during the first term of this administration and other--
and places elsewhere have reinforced that addressing the 
threats requires a comprehensive government approach to both 
stabilization and reconstruction.
    The Department of Defense has a key role to play in 
establishing a secure environment. But the expertise of other 
U.S. Government departments and agencies in promoting essential 
services, the rule of law, the development of civil society and 
elected governments, and the institution of a market-based 
economy is essential in establishing a stable-nation state.
    S/CRS will play a critical role in coordinating the work 
across all departments and agencies within the Government, and 
the Department of Defense stands ready to respond positively.
    The ability of S/CRS to coordinate our Government's 
response and mobilize civilian capabilities quickly will save 
lives and treasure.
    Preventing conflict and rapidly establishing a sustainable 
peace after conflict are critical objectives. Because the 
Department of Defense understands the need for early measures 
to prevent problems from becoming crises, and crises from 
becoming conflicts, we have provided a significant amount of 
support already to S/CRS.
    We have six personnel as liaison and expert advisors to the 
Coordinator. We have arranged participation in multiple 
conferences, seminars, trainings, and most especially, military 
exercises on the behalf of S/CRS.
    We have funded a feasibility study on the development of a 
civilian response force. We are offering support to S/CRS's 
planning efforts. And we have provided advice and assistance to 
the development of different operational concepts that might be 
used by the Coordinator.
    We are funding model-based predictive tools to identify to 
states of concern, and we have sponsored a legislative proposal 
and a defense authorization bill to help State fill the 
civilian deployment gap until S/CRS and the State Department 
are able to do so.
    I would also like to take a moment to highlight DOD's 
legislative proposal in support of S/CRS and the issue of 
funding the Coordinator generally.
    The Department of Defense strongly supports the President's 
budget for both State and S/CRS, and so they can continue the 
capability--developing capabilities for reconstruction and 
stabilization.
    In the near term, DOD would like to help S/CRS fill the gap 
in its ability to deploy in a crisis. The administration's 
recommended section 1204 of the defense authorization bill 
proposes to fill this gap by offering a transfer authority in 
drawdown of up to $200 million for goods, services, and 
additional funding for S/CRS when they need to deploy. And I 
would urge the committee to support the State and S/CRS budgets 
in full.
    We are hoping the Senate Armed Services Committee, under 
Chairman Warner, will also support the inclusion of our 
recommended section 1204 to enable the deployment of the 
Coordinator's activities.
    The main goal of DOD's support to S/CRS is to integrate 
civilian and military efforts across the spectrum of peace and 
conflict. In addition to the ongoing support already mentioned, 
DOD plans on focusing the integration of civilian and military 
efforts in three broad areas--training and exercising, planning 
and operational needs. And I will discuss these briefly.
    Joint training and education ensures that the civilian and 
military personnel who deploy to the field have common 
operating assumptions and understand how to work together.
    Similarly, the purposes of joint exercises is to provide 
the civilian and military personnel an opportunity to test what 
they have learned before they deploy. Joint planning helps 
identify civilian and military roles and responsibilities and 
ensure that the civilian and military personnel know what to 
expect from their counterparts when they are deployed.
    The main challenge here is in developing a robust civilian 
planning capability that is comparable and compatible with the 
current military planning process.
    Achieving jointness in the area of operational needs 
requires comprehensively addressing the current shortfall in 
trained and deployable civilians for reconstruction and 
stabilization in missions abroad.
    This will require expanding the current mechanisms and, in 
some cases, establishing new ones. For instance, there is an 
abundance of untapped talent in State and local governments and 
nonprofit and private sectors.
    S/CRS and DOD have already begun working together toward 
jointness and training and exercising, planning and the 
development of operational needs. But there is still much work 
to be done. It will require the full funding of the President's 
budget this year and in future years.
    The establishment of S/CRS is a first critical step to 
transforming the way our Government addresses the pressing 
security requirements and responds to the stabilization and 
reconstruction missions around the world.
    We cannot realize this vision of the committee and the 
President in championing S/CRS without continued backing from 
the Hill. I appreciate the opportunity to speak to you and look 
forward to your questions.
    [The prepared statement of Mr. Henry follows:]

Prepared Statement of Hon. Ryan Henry, Principal Deputy, Office of the 
     Under Secretary of Defense for Policy, Department of Defense, 
                             Washington, DC

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, I am pleased to 
appear before you today with Ambassador Carlos Pascual, the Coordinator 
for Reconstruction and Stabilization at the State Department, as well 
as my colleagues from the Joint Staff and the U.S. Agency for 
International Development.
    Ambassador Pascual and his staff have done an excellent job in 
standing up the new Office of the Coordinator for Reconstruction and 
Stabilization (S/CRS) to lead, coordinate, and institutionalize U.S. 
Government civilian capacity to prevent or prepare for post-major 
conflict situations, and to help stabilize and reconstruct societies in 
transition from conflict or civil strife, so they can reach a 
sustainable path toward peace, democracy, and a market economy.
    In the coming years, the work of S/CRS will be critical to 
achieving U.S. national security goals. As the National Security 
Strategy and the National Military Strategy make clear, some of the 
most significant threats to U.S. national interests in the early 21st 
century stem from the instabilities, extremism, terrorism, and 
criminality generated within weak states.
    Because of the centrality of these threats in the war on terrorism, 
DOD is working diligently to make stability operations a core 
competency of our Armed Forces. However, as the experiences of 
Afghanistan, Iraq, and elsewhere demonstrate, the military can not 
accomplish these missions alone.
    Efforts must be made to build the capacity of our partners abroad 
and augment the ability of civilian components of the USG to respond 
rapidly and effectively. The ability to mobilize civilian resources 
quickly is as important as the ability to mobilize military resources 
in achieving U.S. national security goals.

                      DOD SUPPORT TO S/CRS TO DATE

    DOD is strongly committed to supporting S/CRS in its efforts to 
increase civilian capacity to respond to stabilization and 
reconstruction missions around the world. The ability of civilian 
components of the USG to prevent conflict and/or establish a 
sustainable peace will save lives and money by either obviating the 
need for military force in the first place or helping our troops come 
home more quickly.
    Since the establishment of S/CRS in July 2004, DOD has provided a 
significant amount of support to S/CRS, including:

  <bullet> Sending five to six liaisons at a given time to S/CRS.
  <bullet> Inviting S/CRS to participate in innumerable conferences, 
        seminars, training classes, and exercises.
  <bullet> Funding a feasibility study on development of a ``Civilian 
        Response Force.''
  <bullet> Offering support to S/CRS planning efforts.
  <bullet> Providing advice and assistance to the development of S/CRS 
        operational concepts to coordinate USG efforts at the 
        strategic, operational, and tactical levels.
  <bullet> Sponsoring section 1204 legislative proposal to allow DOD to 
        help State fill the ``civilian deployment gap'' until S/CRS is 
        able to do so.

    Many of these activities are ongoing. Of particular concern, 
however, is DOD's section 1204 legislative proposal in the National 
Defense Authorization bill, which would allow DOD to help State fill 
the ``civilian deployment gap.''

                   SECTION 1204 LEGISLATIVE PROPOSAL

    The Department of Defense's section 1204 legislative proposal to 
support S/CRS has not been included in either the House or Senate FY 
2006 defense authorization bills. The proposal would allow the DOD to 
transfer up to $200 million in goods, services, sand funding to S/CRS 
through FY 2006. DOD goods, services, and funding would bridge a gap in 
the S/CRS's near-term ability to deploy quickly to a crisis.
    Existing DOD authorities do not have enough flexibility to support 
civilian partners. For example, under the Economy Act, DOD can only use 
items from existing stocks to support activities that it has that 
authority to do itself. Drawdown is slow and prohibits the transfer of 
funds or the ability to contract--both vital for stabilization and 
reconstruction operations. I urge you to include this provision in the 
authorization bill during upcoming floor consideration.

                 CURRENT FOCUS OF DOD SUPPORT TO S/CRS

    The main goal of DOD support to S/CRS is to integrate civilian and 
military efforts across the spectrum of peace and conflict. Achieving 
this goal requires civilian and military personnel to train together, 
plan together, and operate together. Hence DOD efforts in support of S/
CRS are focused on three areas: Training and Exercising, Planning, and 
Operational Needs.

                        TRAINING AND EXERCISING

    The Armed Forces of the United States are the best in the world 
because they continuously go through cycles of training, exercising, 
and operating. Achieving the same skill level on the civilian side of 
the USG will require similar repetitive cycles of training, exercising, 
and operating.
    As a first step, the Department of Defense has opened the doors of 
its educational institutions to S/CRS and invited them to multiple 
exercises. DOD is also participating in S/CRS efforts to create 
training opportunities, such as the new course on stabilization and 
reconstruction that the Foreign Service Institute has developed.
    The goal is for DOD and S/CRS to train and exercise jointly--with 
the DOD learning from S/CRS and S/CRS learning from DOD. Joint training 
and education ensures that civilians and military deployed in the field 
have common operating assumptions and understand how to work together. 
Joint exercising gives civilians and military personnel the opportunity 
to test what they've learned before they are deployed.
    The Department of Defense would like to expand joint training and 
exercising with S/CRS and other civilian components of the USG. The 
main limiting factor for S/CRS is time and funding. S/CRS has a total 
staff of approximately 35 persons with a heavy workload and day-to-day 
responsibilities that often preclude long-term training for themselves 
and the development of training opportunities for others.

                                PLANNING

    Building a robust planning capability in S/CRS and other civilian 
components of the USG is critical to ensuring future success in 
stabilization and reconstruction missions. This is a large and 
important task which will involve not only education and training, but 
also the creation of new structures.
    The Department of Defense realizes the critical nature of this task 
and is working to (1) help S/CRS develop a planning capability and (2) 
integrate S/CRS and other civilian components of the USG, as 
appropriate, into the DOD planning process.
S/CRS staff have made progress in this area. They have begun to develop 
a strategic planning template and are learning about the military 
planning process. There is much work to do. There is a shared desire to 
move forward.

                           OPERATIONAL NEEDS

    The Department of Defense has identified the lack of trained and 
deployable civilians as a critical limiting factor in the ability of 
the USG to conduct stabilization and reconstruction missions abroad. 
Full funding of the Department of State and S/CRS in FY 2006 would 
allow it to develop an Active Response Corps consisting of 100 
personnel from within the State Department. They are also looking at 
expanding contract mechanisms and putting together a USG database of 
civilians within the USG.
    This is a good start, but a more robust mechanism may be needed. At 
the request of S/CRS, DOD is funding a feasibility study for S/CRS on 
the establishment of a ``Civilian Response Corps'' managed by a 
civilian department or agency. The study is assessing the requirements 
and costs of various options contracts, rosters, reserves, and 
combinations thereof--for providing a standby civilian capacity for 
deployments.
    The study is still being worked on, but there are a few conclusions 
that can be drawn from previous experience:
          (1) Regular training and exercising of a civilian corps is 
        just as important as with a military reserve. ``Pick-up'' games 
        rarely work well.
          (2) There is an abundance of untapped talent in State and 
        local governments, and the nonprofit and private sectors.
          (3) Contract mechanisms may be sufficient for some skill 
        sets, but not all (i.e. transitional security).

                               CONCLUSION

    The strategic environment has changed and the USG must keep pace if 
it hopes to accomplish its national security objectives and win the war 
on terror. Establishing S/CRS is a critical first step to transforming 
the way the USG responds to stabilization and reconstruction missions 
around the world. It is important to continue transforming the USG to 
meet the challenges of war, instability, and peace.

    The Chairman. Well, thank you very much, Mr. Henry, for 
coming this morning.
    The Chairman. I appreciate your mention of Chairman Warner. 
I would mention we would want to share the full hearing record 
with the chairman, with Senator Levin, the distinguished 
ranking member, and other members of the Armed Services 
Committee, because they share our interest in what we are 
talking about today.
    Mr. Henry. Yes, sir.
    The Chairman. General Sharp. Can we--may we have your 
thoughts this morning?

 STATEMENT OF LTG WALTER SHARP, DIRECTOR, STRATEGIC PLANS AND 
   POLICY, JOINT STAFF, DEPARTMENT OF DEFENSE, WASHINGTON, DC

    General Sharp. Good morning, sir. Good morning, Mr. 
Chairman. And I also appreciate the opportunity to appear 
before you today to discuss this very important initiative. As 
you know the primary purpose of our military is to win our 
Nation's wars.
    With the support of Congress we have had some major 
successes during the last 4 years of sustained combat 
operations. However, those of us in uniform are acutely aware 
of the limits of traditional military power.
    Enhancing our post-conflict stabilization and 
reconstruction capabilities is important in our ability to be 
able to prevail. General Myers, General Pace, and the combatant 
commanders are committed to helping build the civilian capacity 
to plan and execute future stabilization and reconstruction 
operations.
    We believe stabilization and reconstruction operations need 
to become a core competency of all departments of our 
Government. Our experiences in Afghanistan, Iraq, and elsewhere 
have made it clear that our military cannot accomplish this 
mission alone.
    In addition to building the capacity of our partners 
overseas, we must enhance the ability of all departments of our 
Government to rapidly plan and respond to a crisis. Only then 
can we bring to bear all elements of national power in a 
coordinated fashion.
    Taking on crises in this manner will allow us to more 
rapidly and effectively stop or avert or lessen the depth and 
breadth of any problems and contingencies, and most importantly 
save both military and civilian lives and money.
    Developing this capacity takes leadership and organization. 
With the help of this committee and many others, we believe 
Ambassador Pascual is providing the right leadership and 
building the right organization.
    S/CRS is developing a cadre of deployable people who have 
skills in the following areas that we think are critical. 
First, security--both from developing the police and also the 
military side. Second, rule of law--developing the country's 
judicial and penal capabilities. Third, an infrastructure--
developing a country's electrical, fuel, and sanitation 
systems. Fourth, in the economic and social welfare areas--
helping a country to develop jobs and health services. Fifth, 
humanitarian--making sure that food and shelter is available. 
And, sixth, governance--helping to establish the ability of a 
country to govern and to conduct elections.
    This effort is focused on three capabilities that are 
particularly important for stabilization and reconstruction 
operations. The first required capability for stabilization and 
reconstruction is planning. All agencies in the U.S. Government 
need to have the types of deliberate and crisis planning 
capabilities possessed by our combative commanders, joint task 
force commanders, and the joint staff.
    Ambassador Pascual and Administrator Natsios have made good 
progress not only in developing their planning processes but in 
integrating them with the military here in Washington and out 
with our combatant commanders.
    I would also like to add that Admiral Giambastiani and 
Joint Forces Command have taken a very active role in this 
endeavor.
    The second required capability is to be able to rapidly 
mobilize and deploy properly trained civilians when a crisis 
arises. Ambassador Pascual and his staff have come up with some 
innovative ideas of how to accomplish this, including the 
active reserve corps and several expanded contracting 
mechanisms that will allow us to quickly build up, then 
sustain, our capability for stabilization and reconstruction.
    DOD has considerable experience with mobilizing and 
deploying Reserve forces in time of crisis. And we have 
provided lessons learned and other assistance as required. 
There is more work to be done, but we believe we are definitely 
on the right track.
    The third necessary capability is to exercise these 
planning and execution functions. This is essential to ensure 
that planning, mobilization, and deployment mechanisms are 
sufficiently well developed and integrated with all other 
agencies to include the Department of Defense. Here, again, 
good progress has been made.
    Both S/CRS and USAID has spent considerable time ensuring 
that stabilization and reconstruction operations are featured 
in all future combatant command exercises.
    The necessary training to prepare personnel for these 
exercises is being put into place as well. In fact, two 
officers from my staff are attending the new Foreign Service 
Institute course on stabilization and reconstruction this week.
    As I stated earlier, we are committed to helping our 
civilian counterparts succeed. I have highlighted many of the 
actions that have taken--that we have taken to assist 
Ambassador Pascual and his organization.
    The chairman, General Myers, also joins with Ryan Henry in 
requesting that Congress include the President's section 1204 
in the fiscal year 2006 defense authorization bill.
    This proposal would allow DOD to transfer up to $200 
million in equipment services and money to S/CRS during fiscal 
year 2006 and greatly improve Ambassador Pascual's ability to 
rapidly deploy in a crisis.
    In conclusion, Mr. Chairman, the President has charged us 
with a task of improving the responsiveness of our Government 
to help nations emerging from tyranny and war. I believe we had 
made good progress toward building that kind of robust 
organization that can plan, mobilize, and deploy at a pace 
equal to the military and provide assistance the President has 
called for.
    Many challenges remain. However, with the continual help of 
this committee and Congress as a whole, we can succeed. Mr. 
Chairman, this concludes my remarks. I look forward to your 
questions.
    The Chairman. Thank you very much, General Sharp, for your 
testimony.
    I would like to call now on Mr. Kunder. And I have already 
recognized the wonderful contribution you have made to our 
group as we began to think about this legislation and the whole 
area. It is great to welcome you back today.

STATEMENT OF THE HON. JAMES R. KUNDER, ASSISTANT ADMINISTRATOR 
   FOR ASIA AND THE NEAR EAST, U.S. AGENCY FOR INTERNATIONAL 
                  DEVELOPMENT, WASHINGTON, DC

    Mr. Kunder. Thank you, sir. I consider the service on that 
advisory group one of the high points of my career and very 
much appreciated the opportunity to do that.
    I just want to make four points quickly. I appreciate your 
telling us we do not have to be too economical with our words, 
but we should be economical.
    First, I would like to say that we unequivocally and 
strongly support the Office that Carlos is leading at the 
Department of State. We think this is exactly the right tool at 
exactly the right time to organize the overall U.S. Government 
effort and to make it more effective in crisis response.
    I had the opportunity to open the USAID mission in Kabul, 
Afghanistan, after the Taliban fell, and previously I had the 
opportunity to serve as Director of USAID's Office of Foreign 
Disaster Assistance, so I have some experience in crisis 
response, having worked in Somalia, Bosnia, southern Sudan, and 
other places. And, while what we are discussing may appear to 
be an abstract government organization issue, I want to endorse 
very much what Ambassador Pascual said about the urgency of 
moving forward, because in the field, the inefficiencies in 
response, or the slowness in response, is translated into 
broken bodies and starving children. So the urgency in the real 
world is quite intense that we get these kind of reforms done.
    I would also agree very much with what Mr. Henry has said 
about the costs in terms of our own soldiers' lives and, of 
course, our own children's lives, if we allow these unstable 
spots to fester on the face of the earth. So we very strongly 
endorse what Carlos is doing.
    We also want to note that we think the President and 
Secretary of State's choice of Ambassador Pascual was inspired. 
We are proud of the fact that he has served in USAID, as well 
as the State Department, so we think he has enormous breadth of 
experience and a unique perspective. In general, we think that 
the Office of Crisis Response and Stabilization is exactly the 
right tool.
    The second point I would like to make is that we, at USAID, 
are trying to organize in response to the impetus that the 
committee has provided and the President has provided. 
Administrator Natsios, when he took over the job as USAID 
Administrator, created a new bureau called the Bureau for 
Democracy, Conflict and Humanitarian Assistance, to link 
together the various elements that General Sharp was just 
talking about, recognizing that humanitarian response, 
governance, and crisis response are all critical.
    Subsequent to the creation of Ambassador Pascual's Office, 
we are looking at reorganizing again in direct response, so 
that we can provide the kinds of teams that he will need to 
deploy and the capacity that he will need when he gives the 
signal to send our U.S. Government joint forces forward.
    We have also created a new Office of Military Affairs at 
USAID. In the real world, we are dealing with our military 
colleagues on a daily basis in the provincial reconstruction 
teams in Afghanistan, in the field in Iraq, and in many other 
places. But we completely agree that we need to do more joint 
training and more joint planning.
    So, under the overall umbrella that Ambassador Pascual is 
putting together here, we are trying to establish these direct 
civilian/military linkages to be more effective in the field.
    The third point I would make--and hence the charts up here 
and charts appended to my statement--is that, in addition to 
structural change, we are trying to do serious operational 
research in the process that we are engaged in. This is 
something we are doing in conjunction with Ambassador Pascual's 
Office and in cooperation with our military colleagues.
    The U.S. Government needs to understand better exactly what 
to do when we have a crisis. We are looking not just at after 
nations have fallen apart, but we are looking at countries that 
are beginning to show the signs of instability and trying to 
generate resources so that a penny spent now saves the taxpayer 
a dollar later.
    Across the area that I am honored to manage, we not only 
are looking at Afghanistan reconstruction and Iraq 
reconstruction, but we are also looking at Nepal, and we are 
looking at fraying of the social order in Bangladesh, and we 
are looking at Sri Lanka, and we are looking at continued 
instability in Mindanao in the Philippines. These charts look 
at questions about how we can direct the sources of 
instability, government effectiveness versus government 
legitimacy, delivery of social services but delivery of social 
services in socially acceptable ways. How do we engage the 
active Muslim communities in these places, who agree with us on 
many questions of child survival and maternal well-being--how 
do we mobilize them as assets, rather than enemies?
    This kind of operational research, which I just touch on 
with these charts, is, I think, a rich area for us all to work 
together on.
    The fourth point I would touch on in closing is the 
question of resources and manpower. I thought one of the most 
important findings to come out of the policy advisory group 
that you initiated, and which you cited earlier, is the fact 
that we have to have some bodies to do this. I have reported to 
the committee before--and I am not here specifically to talk 
about USAID; I am here as part of the interagency team--but 
USAID, from a high point of about 9,000 employees during the 
Vietnam war, because of policy decisions made during the 
nineties is down to about 2,100 officers worldwide.
    We simply, at some point, need the bodies to get out in the 
field. So we strongly endorse Ambassador Pascual's call for the 
conflict response fund, the $100 million fund, and also the 
establishment of some standing capacity so that we can get the 
right folks out to the field.
    I was listening closely to General Sharp's comments about 
the kinds of capacities we need. We completely agree with that. 
Right now, within the U.S. Government, we know that in every 
crisis there is likely to be a need for demobilizing fighters. 
In any one of these crises, informal forces--militia forces, 
guerrilla forces, warlord forces--are constituted. We need to 
demobilize those fighters and reintegrate them into civilian 
life.
    Yet we do not have a dedicated capacity anywhere in the 
U.S. Government, a cadre of technical experts, who know how to 
do that well.
    And in closing, sir, I would like to thank the committee 
and the Senate and the Congress for their support for beginning 
to turn this around. We have gotten authority from the Congress 
to increase our hiring at USAID by a couple hundred. It is not 
enough, but it is very much welcome. We have brought one of our 
new classes of ``new entry professionals'' to this hearing. If 
I could ask the chairman's indulgence, we have a group of them 
standing in the back of the room, who are coming up for their 
first congressional hearing.
    The Chairman. Please stand.
    Mr. Kunder. This is part of their training in understanding 
the importance of the Congress to our work.
    The Chairman. Right.
    Mr. Kunder. These are the kind of folks with graduate 
degrees who will help rejuvenate some of us gray-haired folks 
who have been working in this area.
    So with that, I would just close again with our strong 
endorsement of Ambassador Pascual's role and the criticality of 
sustained support and resources for what he is doing.
    Thank you, sir.
    [The prepared statement of Mr. Kunder follows:]

 Prepared Statement of James Kinder, Assistant Administrator for Asia 
     and the Near East, U.S. Agency for International Development, 
                             Washington, DC

    Mr. Chairman, members of the committee, it is an honor to appear 
before you again today. I especially welcome the opportunity to testify 
on the new Office of the Coordinator for Reconstruction and 
Stabilization in the State Department (S/CRS) and its role as part of 
our national security architecture. We, at USAID, appreciate the 
committee's strong interest in, and support for, improving the U.S. 
Government's crisis response capability, and the sustained leadership 
shown by the chairman, Senator Biden, and other members of the 
committee.
    Clearly, one of the central lessons of 9/11 is the critical 
importance of weak and failing states. The pathologies that emerge from 
fragile and failed states readily spread across porous boundaries and 
potentially affect entire regions with crime, drugs, disease, 
trafficking, and environmental degradation, as well as economic 
deterioration and political instability. These states may also be the 
scenes of large-scale refugee or internal displacement, and can spawn 
widespread human rights abuses.
    As the National Security Strategy states, we need to bring to bear 
the whole range of tools that are at our disposal--in the domains of 
defense, diplomacy, and development--and apply them in a much more 
consistent, coherent, and coordinated fashion. The President meant this 
in a general sense and as a fundamental prerequisite to a more 
effective foreign policy in a period of instability. But the 
coordination imperative also applies, specifically, in the case of 
failing and failed states where military, diplomatic, and development 
endeavors must be brought to bear synergistically.
    Failed and failing states are both the incubators of terrorism and 
the sanctuary for terrorists. It was no mere coincidence that the 
Sudan, Somalia, and Afghanistan served as al-Qaida's training and 
staging redoubts. As the National Security Strategy document succinctly 
puts it: ``America is now threatened less by conquering states than by 
failing ones.'' Regions far away, we now know by painful experience, 
are not immune from the consequences that arise from state failure on 
other continents. This became all too obvious to this country the 
morning of September 11, 2001.
    Over the last 15 years, USAID has been involved in six major post-
conflict and stabilization projects, including Somalia, Bosnia, Kosovo, 
Liberia, Afghanistan, and Iraq. We have also been significantly 
involved in a variety of others, including Cambodia, Mozambique, El 
Salvador, Nicaragua, Guatemala, Rwanda, Sierra Leone, Colombia, and 
East Timor. As these lists indicate, the problem is not limited to any 
one region of the world, nor is state failure a transient phenomenon. 
USAID brings unique strengths that it has gathered from over 50 years 
of humanitarian and post-conflict interventions. In a 2001 study, our 
Bureau of Policy and Program Coordination found, incredibly, that two-
thirds of the 80 countries, where we were present, had experienced 
violent conflict over the previous 5 years.
    As this committee has noted in previous deliberations, the USG's 
approach to dealing with failing and failed states has, historically, 
been ad hoc and reactive. All too often, senior policymakers have 
become seriously engaged only at the point when the situation has 
deteriorated to such a point that continued inaction has become 
unacceptable as a matter of national security or morality. Stated 
differently, we have historically tended to engage ourselves at the 
point where our interventions are most urgent and least promising. 
Because failed and failing states feature prominently in the Global War 
on Terror, we must be more proactive and strategic in our response.
    The President's initiative in establishing the Office of 
Reconstruction and Stabilization (S/CRS) is an important component in 
addressing this most important national security problem. USAID 
believes S/CRS can play a significant role as part of the new foreign 
policy apparatus required to meet the challenges we now face. S/CRS can 
help ``fill the gap'' in meeting some of the shortcomings we have 
experienced in dealing with failed and failing states over the past 
decade and a half, and in better coordinating the civilian response to 
crisis, as well as the civil-military strategies, plans, and responses 
essential to successful stabilization operations.
    As a standing office, S/CRS can help monitor states that are prone 
to fragility and bring high-level attention to problems as they 
develop. This can help us take steps necessary to shore up weak states. 
In the event of failures we cannot prevent,
S/CRS can also help us design strategies that ensure a timely, 
effective USG response. In other words, the existence of S/CRS will 
allow for timelier interventions that can either prevent or mitigate a 
crisis. This will help avoid situations, as in Somalia, where matters 
degenerated to such an extent that our only effective alternative was 
the application of force. In brief, S/CRS will enable us to act in a 
more proactive manner and with a greater array of tools.
    S/CRS can play an important role in coordinating with partners in 
other countries and international organizations to pool the necessary 
resources to deal more effectively with states in crisis. It can play 
the same indispensable coordinating role among a range of departments 
and offices in the USG, ensuring that the particular expertise and 
value-added of each USG agency is reinforcing the overall USG effort. 
For these reasons, USAID is a strong supporter of the S/CRS 
architecture and has been providing staff and resources to assist the 
Office in getting up and running. USAID has seconded 7 senior staff 
from the Agency to further CRS's work, and we intend to continue 
providing staff support to bolster its capacity in key leadership 
areas.
    We also believe Ambassador Pascual to be an inspired choice to lead 
S/CRS. We are proud that, among the many contributions he has made to 
our Nation, he initially came from the ranks of USAID. His 
extraordinary breadth of experience and perspective, and his analytical 
and leadership qualities, make him an ideal person for the unifying and 
innovating role in which the President and Secretary of State have 
asked him to serve.
    USAID's work in fragile and failing states will be guided by its 
new Fragile States Strategy.\1\ With assistance to weak states now at 
the center of the national security agenda, USAID has undertaken an 
extensive reassessment of how to improve the effectiveness of its 
response to the unique challenges posed by fragile states. The strategy 
identifies three central goals: Improving the analysis and monitoring 
of fragile states; focusing programs on the causes of fragility; and 
improving internal business practices to facilitate a rapid and 
effective response. The strategy is based on the understanding that 
close coordination among the range of USG agencies is essential, which 
is why we believe S/CRS has such a crucial role to play.
---------------------------------------------------------------------------
    \1\ This document has been retained in the permanent record of the 
hearing and also can be viewed at the Web site: www.usaid.gov/policy/
2005_fragile_states_strategy.pdf.
---------------------------------------------------------------------------
    It should be noted that the efforts to improve stabilization and 
reconstruction capacity in the United States have parallels 
internationally, as well. USAID's sister agency in Great Britain, the 
Department for International Development (DFID), has also put forward a 
fragile-states strategy that closely parallels our own. Fragile and 
failing states were also on the agenda of a Development Assistance 
Committee (DAC) meeting of the OECD in February. This gathering brought 
together some 100 heads of donor organizations, Western development 
officials, and representatives from developing countries and afforded 
both DFID and USAID the opportunity to unveil their respective 
strategies.
    Recognizing that USAID must adapt its structures and functions to 
the current challenges our Nation faces, Administrator Natsios has made 
a number of innovative internal changes, both preceding the 
establishment of S/CRS and in sync with the new office. For example, 
upon assuming office, the Administrator established the new Bureau for 
Democracy, Conflict and Humanitarian Assistance, structurally linking 
the Agency's response to the disparate elements often encountered in 
failed or failing states: Humanitarian needs; conflict within society; 
and democracy and governance issues. Within this new Bureau, Mr. 
Natsios created the Office of Conflict Management and Mitigation, with 
the specific mission of tracking failing states and impelling responses 
to prevent full-scale state failure.
    As we implement our Fragile States Strategy we are now pursuing 
further organizational changes within USAID so that we can meet the 
Agency's new mandate under the President's National Security Strategy. 
This includes organizing to interface effectively with S/CRS, across 
the range of USAID's response capabilities. We are concurrently 
perfecting an agencywide response platform that links rapid post-
conflict humanitarian and stabilization activities with immediate 
planning for longer term recovery. We view this linkage as the real 
value-added USAID brings to the USG's reconstruction and stabilization 
arsenal. USAID management recognizes that we need to stop the 
instability when states fail--to ``staunch the bleeding,'' if you 
will--but we also need, simultaneously, to sow the seeds for long-term 
reconstruction and development. In military terms, we need to take the 
steps that will allow our troops to come home as soon as possible, but 
we also need to initiate the long-term development that will help 
ensure they will not be called back to the same country several years 
later. We are developing a standard structure and system for standing 
up and operating a complex emergency task force that can become 
operational as quickly as USAID's Response Management Teams (RMTs) for 
natural disasters, then transition rapidly to a reconstruction and 
development platform. Our initial efforts at such a task force 
configuration in Afghanistan, Iraq, and the Asian tsunami have taught 
us useful lessons, on which we are building.
    The President and Secretary Rice have emphasized the centrality of 
democracy and freedom, both to our national security and to development 
in general. Democracy and human freedom contribute to stability and 
prevent state collapse, and further, when states are rebuilding, 
democratic, inclusive governance must be incorporated into the 
reconstruction process. Without strong democratic systems in place, 
reconstruction efforts are left in jeopardy. Democracy, rule of law, 
and good governance are the key elements of USAID's Democracy Strategy 
that are needed to ensure the success of reconstruction efforts in 
fragile and failing states.
    The spread of democracy is central to our national security. As the 
President has said, new challenges arise from ``terror networks'' that 
are aided by ``outlaw regimes'' or live at the intersection of failed 
states, poverty, chaos, and despair. It should now be clear that the 
advance of democracy leads to peace, because governments that respect 
the rights of their people also respect the rights of their neighbors 
and because ``in the long run, stability cannot be purchased at the 
expense of liberty.''
    Good governance, founded on democratic principles, is our best hope 
of meeting those challenges before they become threats. USAID has 
established, as a core goal, ``the transition to, and consolidation of 
democracy and good governance throughout the world.'' To reach that 
goal, we focus on three objectives: Expand political freedom and 
competition; promote justice and human rights through rule of law; and 
strengthen democratic and accountable governance. USAID programs are 
implemented by a democracy corps of over 400 democracy and governance 
officers who serve in over 80 country and regional missions, and who 
are managing $1.2 billion in program resources in 2005 support the 
administration's initiative.
    USAID is dedicated to ensuring that its resources carry out the 
vision of the President, and ultimately the American people, by 
supporting the development of prosperous democratic partners for the 
United States around the world. Two recent examples of USAID's efforts 
in post-conflict democracy building include:
    Iraq: USAID played a key role in supporting the Iraqi election 
process as well as helping to build democratic institutions in a 
country that was misruled with an iron fist for generations. USAID 
helped mobilize thousands of Iraqi election staff, many hundred Iraqi 
civil society organizations, and helped Iraqi and international 
organizations to field domestic election observers, deliver voter 
education, and implement conflict mitigation programs. With USAID 
support, over 220 core election monitors were trained, and with 
additional European Union support, in turn trained as many as 12,000 
domestic monitors. One indicator of election success was the higher 
than anticipated voter turnout. But most importantly, the 275-member 
Iraqi National Assembly (INA)--with 25 percent female representation--
was elected to govern the country, draft a new constitution, and 
provide for a national referendum on the constitution and subsequently 
a constitutional government.
    Afghanistan: USAID has helped Afghanistan move toward the promise 
of democracy, stability, and peace. The staging of the Loya Jirga 
national assembly in summer 2002, only months after the fall of the 
Taliban regime, owes much to logistical support provided by USAID. The 
USG was the largest and earliest donor. USAID provided $151.2 million, 
including logistical support for the Afghan Transitional Authority to 
convene the delegates responsible for ratifying the new Afghan 
Constitution. USAID also supported the October 2004 Presidential 
elections, when Afghans elected Hamid Karzai. USAID today is deeply 
involved in helping to prepare for parliamentary elections currently 
scheduled for September 2005--helping Afghans build a legitimate state 
with institutions that promote good governance and the rule of law.
    An important element of our restructuring for stabilization and 
reconstruction efforts is a more formal linkage with the U.S. 
Department of Defense at the operational level. Although we have 
traditionally maintained a military liaison unit in USAID's Office of 
Foreign Disaster Assistance (OFDA), and while we work closely with 
military units in Afghanistan, Iraq, in the tsunami response, and in 
many other locales, Administrator Natsios has directed that we 
establish improved planning and liaison structures. In response to his 
directive, USAID has now created a Military Policy Board, and a new 
Office of Military Affairs. The Military Policy Board oversees the 
policy interface with DOD, including personnel and training actions. 
The new Office of Military Affairs will manage and facilitate USAID's 
day-to-day work with DOD, prioritizing and managing training, 
conferences and exercises, planning, communications and operations with 
the military when crises arise.
    The USAID links with S/CRS, our strengthened crisis response 
platform, and new Office of Military Affairs will significantly 
increase USAID's stabilization and reconstruction capabilities. We 
believe these changes will make us a more useful partner to Ambassador 
Pascual and his team, as he takes on the challenges he faces, including 
the need for a coordinated USG plan and response, the imperative for 
additional, flexible resources, and the requirement for filling in the 
gaps that still exist within the USG response system.
    In closing, I would like to bring to the committee's attention two 
areas of policy and operational research in which USAID is active, and 
which we hope will contribute to the topic we are discussing today: 
Building peace in hostile environments. As part of the development of 
USAID's Fragile States Strategy mentioned earlier, we are pursuing 
ongoing work to examine fragile states--failing, failed, or recovering 
states--and what steps the USG can take to assist them. Our work 
attempts to disaggregate the causal factors for fragility, broadly 
arrayed as issues of effectiveness and issues of legitimacy. We then 
align resources against these factors. The attached chart reviews our 
approach to fragile states.
    A second area of operational research, shared with S/CRS, is in the 
area of refining the post-conflict task framework, and carefully 
delineating and sequencing the required tasks, when a nation does slip 
into crisis. The second attached chart, prepared for our Iraq program, 
serves as a brief indicator of how a ``menu'' of task options is 
transformed into a reconstruction strategy. By carefully examining the 
task framework, we believe we can contribute to the USG's efforts to 
identify programmatic and organizational gaps in the overall 
stabilization and reconstruction system.
    USAID applauds the committee's staunch support for S/CRS and the 
stabilization and reconstruction response systems needed to meet our 
national security objectives. I am prepared to answer any questions the 
committee may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Well, thank you very much for that strong 
testimony. Likewise for introduction of your new associates. 
That is so important in understanding this.
    Let me just begin the questioning. We will have a 10-minute 
round, and I have a lot of questions. So I hope we will have 
opportunities to raise those during the course of the time.
    I would just mention for those who come into this subject, 
sort of in midstream, that without oversimplifying what we are 
talking about, it is the fact that there has been perhaps a 
long American tradition of going out into the world and 
fighting battles successfully and, having done so with 
satisfaction that the right side has won, withdrawing, coming 
home, and retiring.
    And one can argue historically how well or how poorly that 
all has worked, but obviously we are in a new cycle of 
understanding of this. Afghanistan in the late eighties is a 
case in point. Suddenly we did withdraw from Afghanistan. We 
withdrew from Pakistan. We, in essence, came home. But not 
everything continued well in Afghanistan.
    And as we now know, the al-Qaida encampments began training 
persons who attacked us here in the United States, not in 
Afghanistan. Americans have wondered what happened in the 
meanwhile.
    Now, essentially we went back to Afghanistan, but the 
thought on this occasion was that perhaps we should work 
carefully with the Afghans on a government structure there that 
would be very helpful for all the people of that country, but, 
likewise, helpful for ourselves and for the rest of the world, 
so that there would not be a reconstitution of al-Qaida or an 
incubator for terrorism in the country.
    That is a big commitment, as you have pointed out, a 
daunting challenge, Afghanistan, all by itself. And you can 
say, ``Well, surely, there must be talented Americans that can 
be found somewhere in the country to supplement the role of our 
fighters, who are still working their way through the rest of 
al-Qaida or the Taliban or so forth,'' and there are. But the 
point of our exercise now is to identify these professionals 
and maybe others that are an auxiliary, who can be helpful to 
them permanently. Just as we could not have envisioned 
precisely the outcome in Afghanistan, we have an even more 
daunting challenge working with our allies in Iraq.
    And as you have pointed out, Mr. Kunder, we have even taken 
a look at Nepal and various other countries that you mentioned, 
not from the standpoint that we are going in full force to 
reorganize their governments, but rather as you said, as 
preventive medicine, where there are requests for help and 
stability.
    Now, since our policy in Afghanistan has been one of 
dynamically fostering democracy, and we all rejoice in the 
extraordinary number of manifestations of that in the last 24 
months of time. Sometimes, along with democracy, if there has 
been a very severe dictatorship or autocracy problem, there 
comes a certain amount of instability as new institutions take 
hold, as requests come for assistance that may, or may not, be 
forthcoming if we are not prepared.
    In other words, the very dynamism of our foreign policy, 
hoping that people can be free as the President suggested in 
his inaugural address, right out here on the Capitol steps, 
almost denotes a certain degree of instability, albeit creative 
and hopeful as it may be.
    So this is the reason why the Departments of Defense and 
State, USAID, and others have come together. I salute this as a 
manifestation of the best of American government.
    So, frequently, there are press accounts of disputes, of 
people pushing for turf. That even happens with congressional 
committees, worrying about jurisdiction and so forth. But this 
is a pretty broad subject. We are talking about an imbalance--
about military people, about State Department professionals, 
but also people who have experience, maybe in business and 
banking and education and political systems and health and 
education--all of these things really do not come under any 
committee or any department of our Government.
    So this requires an enormous amount of cooperation and 
sharing. That has been manifested by this panel this morning, 
and I salute that.
    Well, let me commence questioning with you, Ambassador 
Pascual, by getting down to the nitty-gritty of the problem. 
The executive branch has requested $24 million for fiscal year 
2006 for the Office and $100 million for an emergency fund. 
That is funding that members of this committee fully 
authorized, but other Members of Congress do not yet understand 
the complexity of the problem. And so as a result, the 
emergency supplemental fell far short of the request, and some 
reports indicated that the House of Representative's mark is 
thus far a very low figure for the 2006 funding.
    Now, describe to us what will be the impact of this very 
modest funding if those rumors or reports were to continue into 
actuality, if you cannot get the full $100 million for the 
emergency fund. What is that going to mean about the capability 
of your Office to be ready for a crisis situation?
    Ambassador Pascual. Mr. Chairman, thank you very much. 
Thank you for highlighting these issues, for highlighting the 
importance of the coordination among the interagency community 
as you have stated; and, indeed, for highlighting what 
Secretary Rice has really called the need for transformational 
diplomacy, of diplomacy that can actually affect changes and 
differences on the ground. And your question on resources 
really cuts to the core of the capacity of the United States to 
have a real and effective transformational diplomacy throughout 
the world.
    One of the things that I have learned from my military 
colleagues is that if we want to be effective on the other side 
of a conflict, if we want to be able to respond when the 
theater demands us to respond is that we have to have the 
capacity ahead of time to plan, to prepare, to prepare skills 
and resources, to organize ourselves in advance.
    And it is exactly these kinds of issues that are going to 
be affected if we do not get the types of resources that we are 
seeking. It is also going to affect our capacity to deploy.
    Let me be more specific. There are certainly things that we 
will be able to do as a result of the limited resources we have 
received so far, and if we do receive a lower level of 
resources, I think it is important to be frank about that. We 
are very--working very hard to improve our Washington 
management capabilities.
    I do believe that we will be able to manage one post-
conflict response out of Washington with a lower level of 
resources, but it will be out of Washington. We will improve 
our planning capabilities. We are committed to that. We think 
that is essential.
    We believe--we will continue to improve our coordination 
with the military. We will be able to develop a better 
cataloging of contractual capabilities.
    What we will not be able to do is to develop an active 
response corps that establishes the kind of standby 
capabilities that allows us to move into the field effectively 
and quickly. It will affect our ability to develop this kind of 
civilian reserve that all of us have underscored as absolutely 
critical to have, to have that type of transformational skill 
that is necessary to affect a conflict early in the process, so 
that we can influence the dynamic.
    It will affect our capacity to deploy resources to the 
field quickly. It will affect our ability to conduct extensive 
exercises that allow us to really sharpen the capacity to work 
effectively in the field and work through issues in advance.
    And, quite frankly, it would also affect our ability to 
regularize our staff. Presently, we have about 45 people 
working on these issues. Most of those people are there on 
temporary arrangements and details, so it is fantastic that the 
U.S. Government has brought itself together to do this, but 
unfortunately it creates transition and turnover. And if what 
we want to do is institutionalize the capability, we have to 
have people who are consistent and regular.
    So, in effect, Mr. Chairman, what happens if we get those 
lower resources is that it relegates us to better planning in 
Washington. It really cripples our capability to make a 
difference where it counts on the ground, in the field, where 
we need to effect the dynamics of change.
    The Chairman. I thank you very much for that response.
    I want to recognize now, Senator Chafee, who has joined us 
in the hearing. I call upon him for his comments and questions.
    Senator Chafee. Thank you, Mr. Chairman, and welcome, 
gentlemen.
    In Rhode Island, we have a number of Liberians that have 
fled the violence and chaos of Liberia, and frequently they 
suggest to us, ``It would be good if we could go back and help 
with any reconstruction in our home country.'' Is there any 
apparatus for including people that have fled their home 
countries in going back and helping rebuild?
    Mr. Kunder. Sir, I think we recognize very much the 
importance of expatriate communities with special language 
skills, with special contacts, and so forth. In Afghanistan, 
for example, both the United States Government and the U.N. 
system established programs, specifically, to try to get 
diaspora Afghans back in the country. We have regular outreach 
meetings to expatriate communities that might be interested in 
investing in their countries and so forth.
    It is a complex area, because, frankly, there are sometimes 
complex dynamics between those who have fled, been forced to 
flee, and those who have stayed. And so that those who return 
sometimes--there are just complex dynamics. I should leave it 
at that.
    But, in general, we recognize the extraordinary value added 
of expatriate communities, and we have specifically tried to 
target them as assets for reconstruction.
    Senator Chafee. And you indicated it has worked in 
Afghanistan in reaching out to Afghans around the world to come 
back. That has been the experience there?
    Mr. Kunder. Certainly--I think I can speak for the other 
organizations as well--certainly at USAID the investors, the 
technical consultants, the counterparts that we work with in 
every country in crisis include some significant component of 
the expatriate community. So in Iraq, we have got a lot of 
Iraqi Americans working for us here in Washington and in 
Baghdad. In Kabul, we have got Afghan Americans working for us, 
so it is very much a part of the United States Government 
response.
    Senator Chafee. Yes, sir.
    Ambassador Pascual. If I might add to that a little bit? 
One of the things that has been very important is the extent to 
which communities organize themselves in the United States, and 
we can engage with them in a systematic and organized way.
    It creates a greater capability, in fact, to be able to 
work with those groups and mobilize their skills. Certainly, 
one of the strongest examples that we have seen of that 
throughout the world is with the Armenian-American community, 
which has played a very important and strong role in the 
development and reconstruction of Armenia.
    We are currently looking at how we can, in fact, mobilize 
this type of diaspora capability in Sudan. And there are 
tremendous--in fact, there are very large numbers of Sudanese 
professionals who are now starting to go back to southern 
Sudan, and, hopefully, to northern Sudan to bring a different 
perspective and skills and capabilities there.
    We are looking at ways in which we can regularize the 
process of tapping those skills and capabilities. Inevitably, 
as Mr. Kunder said, you have to have a country-specific 
response that has the right political mix. But, in fact, if we 
can find a way to generalize those--the tapping of those 
capabilities, it will be to the good.
    And if you have some suggestions for us on groups that we 
might contact relative to Liberia, we would certainly be glad 
to do so and follow up on that suggestion.
    Senator Chafee. Great.
    Thank you, Mr. Chairman. Thank you, gentlemen.
    The Chairman. Thank you very much, Senator Chafee.
    Ambassador, let me just underline a point you made and ask 
you to elaborate some more. In his May 18 address, President 
Bush cited the creation of a new active response corps, to be, 
as he quoted ``on-call.'' And my question would be: Is this to 
be a reserve corps, an active duty corps, or how does it fit 
with what we were calling for in our report as a response 
readiness corps with an active duty and a reserve component?
    For example, we had suggested 250 people in the active duty 
component, but a much larger reserve of citizens, some retired 
military, some former government officials, some just talented 
people in our communities, who, in the same capacity as in the 
military can be called up to serve their country on various 
occasions where those particular talents are involved.
    Describe, if you can, more explicitly, what you envision. 
Even, granted, we have talked about the constraints, the 
finance here, and the need to flesh this out, so that you have 
that. But in the best of all worlds and you have got the money, 
how does this work in your judgment?
    Ambassador Pascual. Thank you. Let me put this in context 
of three types of capabilities that we believe are essential to 
produce an effective response on the ground. One is leadership 
and coordination in Washington; a second is to have the 
diplomatic and technical leadership and design capabilities 
that can be deployed to the ground; and, third, the skills and 
capabilities that are absolutely essential to be able to 
implement programs and make them work.
    And so we need to have staffing for all three parts of 
that. The first portion of that component is led by my Office. 
It plays a core leadership and coordination role in Washington 
and brings together the interagency community.
    In order to have diplomatic and technical leadership on the 
ground, we must have, as you exactly suggested in your bill, 
to--the capability of deploying diplomats and technical 
specialists in a rapid response group that is able to engage 
from the outset in many of the core civilian functions that are 
fundamental to our diplomatic efforts, such as negotiations on 
peace agreements, the development of political arrangements on 
the ground, the development of transitional strategies, as well 
as the design of some of the key programs that are fundamental 
and necessary to promote change and security and stability--as 
General Sharp said, in particular, some of those programs that 
are necessary in transitional security.
    The active response corps is specifically targeted for that 
purpose. What we are seeking to have in the State Department is 
a group of 100 active response diplomats. They would train 
first in a program through my Office. They would participate in 
regular exercises. They would generally work in teams of about 
33 people each.
    The intent is to have a mix of individuals with political 
and economic and diplomatic security, and administrative 
skills. And what they would be able to do is create--go out to 
the field and create the foundation for diplomatic operation if 
it does not exist; or if an embassy has been drawn down 
significantly or needs technical support in certain specific 
areas that they would be able to provide that.
    In those moments when those individuals are not deployed, 
they would work in Washington in either regional or functional 
bureaus on issues related to conflict and conflict response. 
Some of this might include early warning activities. It may be 
developing the reserve mechanisms that we have been 
establishing. It may be working on relations with our 
international partners. It may be working on--with individual 
bureaus on specific conflict activities that they need to be 
able to address.
    So, in effect, what we are looking at is a mechanism of 
having individuals that are proactively addressing the 
questions of conflict and stabilization, and they work in 
Washington, are trained and prepared, and then are able to go 
out in any of those circumstances that are necessary.
    I would just stress that in addition to this, it is still 
absolutely crucial to have that capability of the 
implementation of programs on the ground. And that is exactly 
where your reserve concept comes into play, as was also 
underscored by members of this panel here.
    And in order to achieve that, what we are doing immediately 
is looking at how we expand the contractual capabilities that 
we have, because we have those authorities. But if we are going 
to create a separate type of reserve mechanism that is akin to 
what the military has, that will require new authorities, new 
mechanisms, and so we are jointly studying that with Joint 
Forces Command, so that if we come back with proposals that we 
can demonstrate to you that it is the most cost-effective way 
of getting the job done.
    The Chairman. Well, that is very helpful, and it leads to a 
question I would like to pose to Mr. Henry and General Sharp. 
And it is along these lines. If you were to try to design the 
ideal civilian counterpart as a partner to the military in 
stabilization reconstruction, what would the organization look 
like and how would you describe the possibilities for joint 
training and planning that would be most useful to bring that 
about?
    Mr. Henry. I will go ahead and begin, and then turn it over 
to General Sharp.
    One of the things is we, in the Department of Defense, 
consider ourselves a learning organization and adaptability is 
a--the coin of the realm. No conflict we go into is like the 
last one. There's always lessons learned to be taken from it, 
so I think a key attribute needs to be adaptability.
    What we would suggest is to put together a structure that 
looks compatible based on the lessons learned that we have had 
over the last several conflicts, and areas where we needed to 
get in a capability like S/CRS will provide, and then the next 
step we would take is both train and exercise to it. And we 
think that one of the things that makes us such a potent 
fighting force is our ability to exercise in as realistic a 
scenario as possible.
    And that is one of the things we really look forward to in 
the establishment of S/CRS, and we have already started to take 
advantage of that, is integrating that in with our exercise 
program. And one of the things--adaptations we have made now is 
that we look at every exercise we do and see where we are doing 
stability ops and making sure that that is a key element of the 
exercise objectives; from there, to be able to learn and 
iterate more and then to adapt as we see real world situations. 
But to go in with something that is too static, locked in 
concrete is an approach we think works to the disadvantage of 
what the real world circumstances might prevent--present us 
with.
    The Chairman. General.
    General Sharp. Sir, just a couple of things to add to that. 
First off, I think that it is important to note that we, as the 
U.S. Government, I think, really have made progress. As 
Ambassador Pascual says, we have a ways to go, but we have made 
progress.
    I was in Haiti for 6 months during the mid-1990s when the 
military went in and tried to help stand up a government and 
develop a police corps and run elections. I mean we had some 
other help, but it was mostly on our own down there.
    I saw a marked difference when I was in Bosnia from 2000 to 
2001, where the Embassy was more robust. USAID had great folks 
there doing it on the ground, but I guess my--what I saw is we 
were not really well coordinated. We had individual stovepipe 
organizations that did not have a common overall set of 
objectives or goals and coordinating mechanisms to be able to 
move forward.
    And you move forward then to Afghanistan, and I think we 
made great progress in Afghanistan. If you look at what the 
provisional reconstruction teams, the PRTs are doing, which I 
think we have 24 or 25 throughout the country right now, how 
those are working together to pull all elements of not only our 
power together, but to try to pull the Afghan Government 
together. And it is making tremendous progress there.
    The other thing we learned, I think, really in Afghanistan 
is the importance of--at the command level properly integrating 
and coordinating. What Ambassador Khalilzad and Dave Barno, 
General Dave Barno at the time, were able to pull together for 
a joint command center, sharing intelligence, sharing strategic 
goals, the military believes is really a model of how to do 
that. And I think we learned from there to--what General Casey 
and Ambassador Negroponte have been able to do in Iraq, again 
sharing a lot of abilities to go through there.
    The U.S. Government, both in Afghanistan and Iraq, have a 
set of strategies with specific objectives and goals that each 
one of the departments are measuring themselves, working 
together and coordinating as it goes through. So I think there 
has been progress made.
    When you look, specifically, at what sorts of skills do we 
need within these organizations that we are talking about 
today--I mean I talked through some of the very specific ones 
from police and governance and rule of law, et cetera, but I 
also believe that within those there needs to be some skills 
specifically in language and cultural awareness. I mean, every 
country that we will go into will be different, both from a 
language perspective, but probably just as importantly is the 
culture, as to what that country is used to as far as these 
structures and how we can help them develop those that have 
come down.
    Ryan and everybody else has talked about the ability to 
plan. We, of course, in the military think that that is very 
important, and we put a lot of time into that. We all 
completely understand that the plan changes, as we say in the 
military, as soon as you cross the line of departure, but you 
have a plan to base off of, a plan to adjust from.
    I think the next important is the individuals in it that 
understand the capabilities of other organizations within our 
Government and other international organizations. Now, we in 
the military in the mid-1980s, thanks a lot to the Congress, 
have really learned the importance of jointness and the ability 
to understand other military capabilities. The Goldwater-
Nichols really helped us along that way.
    I think that it might be smart to take a look at that from 
an interagency perspective of the whole U.S. Government. You 
know, should senior, or should people as they come up in State 
or USAID or the military, be required to spend time in other 
organizations in order to be able to use those skills, so that 
when we have to deploy to conflict, we all understand each 
other.
    Continual education, I think, is very important, again of 
very great importance in the military, to take young officers, 
and all the way up through the line, to be able to continue to 
educate them as we go through.
    And I think the last one I will just hit on is the 
importance of having individuals that understand we are a 
nation at war, that we, as a people, I believe, have the 
responsibility to all participate in one way or another of 
winning that war. And these types of organizations are an 
excellent opportunity to have individuals who understand the 
importance of selfless service, understand the importance of 
being part of something that is larger than themself, to go out 
and help other people. So I guess those are the type of 
characteristics that I think are important for this 
organization.
    The Chairman. Well, thank you very much, General. I think 
you have made some profoundly important points. And I will not 
repeat all of them, but I made notes as you proceeded. There is 
a big difference between our interventions, in which you were 
involved, in Haiti and Bosnia--but what is our understanding in 
our own Government of what is required--what are the lessons 
learned from all this? I noted the point that you made about 
people who understand what all of the agencies of our 
Government might do, and likewise what our allies, what other 
countries, may contribute. This is knowledge that does not come 
particularly easily, but it requires assignments across 
Agencies that are not, I suppose, more typical in the Defense 
Department and in State and elsewhere--learning of what others 
are doing in our Government and what talents others may bring 
to the table.
    That is so important because that is the whole point, I 
suppose, of our testimony today in which all of you appear 
together and are, in fact, conversant with what each other is 
doing--thank goodness--and supportive, and amending the bill as 
we proceed. It is important for us in the Congress to 
understand lessons from your experiences, because you have been 
there.
    I just offer anecdotally, sort of triggered by this, my own 
very small military experience a long time ago, now 48 or 47 
years ago, I was a young intelligence briefer for Admiral 
Arleigh Burke, when he was Chief of Naval Operations. One of 
the reasons that Admiral Burke employed me was to make the Navy 
point of view well known to Members of Congress or Cabinet 
members, others that he was able to inveigle into the morning 
briefings. But then I had the good fortune to go down to the 
basement to see Allen Dulles and the CIA people, along with 
other people from other services, who also had points of view, 
the Air Force point of view or the Army point of view or what 
have you.
    This was extraordinarily instructive to me as an advocate 
who was loyal to Admiral Burke and the Navy. This was long 
before Goldwater-Nichols, and even the joint chiefs came in in 
the same way. Since then, our culture has evolved as regards 
public service. The complexities of dealing in other nations 
really have accelerated that, because if we are to be 
successful--as you have stated so well--Americans understand 
that the war on terrorism is a long-going thing. It does not 
simply involve nation states. In places where there are people 
who are declared targets of retaliation, this involves a 
civilian component constantly trying to think through, in a 
dangerous world, how we contribute.
    I think what we are talking about today offers in this 
reserve corps, or however we wish to talk about this, a way in 
which people of talent in our country, who really want to give 
of themselves, will have that opportunity. That is, we are 
bright enough to be able to structure the mechanisms that 
identify them and finance those activities. So, I thank you 
very much for that response.
    Mr. Kunder, in your testimony, you described a new Bureau 
for Democracy, Conflict and Humanitarian Assistance, and 
pointed out that the Agency would be developing an agencywide 
response platform. Just yesterday, as it turns out, we had Mr. 
Michael Hess before our committee for his confirmation hearing, 
to head up this Bureau. You are appearing back to back, 
Wednesday and Thursday.
    We are pleased that such a qualified person has been 
identified and nominated by the President. But can you go into 
more detail about your views of what this ``response platform'' 
is to be? How will Mr. Hess organize the Bureau? How many 
people, for instance, will be involved? And would you consider 
these people reserves, to be quickly pulled from various 
places? How will you identify the people in his situation?
    Mr. Kunder. Thank you, sir. If I may just comment, you were 
talking about the specialized response corps that we very much 
support Ambassador Pascual on. I think one of the interesting 
phenomena in that area is that this is an odd occupational 
specialty. I mean, our Nation has a certain number of computer 
programmers that move from job to job.
    A crisis response coordinator for southern Sudan is an 
occupational specialty as well, and there have been 
traditionally a cadre of folks who have moved around in this 
field. And I can tell you that they are in demand; the demand 
far exceeds supply. Because of the number of crises going on 
around the world right now, we simply do not have enough. We 
have got to invest in creating the kinds of folks who will be 
on standby, who can deploy quickly.
    One of the interesting phenomena, I was thinking when 
General Sharp was talking about Bosnia, about some of our 
military officers, because they have served in peacekeeping 
operations and post-conflict operations, and these are men and 
women who retire often in their midforties full of energy and 
experience. We are increasingly seeing what we see with Mr. 
Hess, and that is a retired military officer moving into a 
management role on the civilian side. And that is an enormous 
potential asset for us.
    Specifically on the Bureau for Democracy, Conflict and 
Humanitarian Assistance, currently that Bureau has within it 
some traditional offices that USAID has used to respond to 
crises: The Office of Food for Peace that delivers food 
assistance around the world, the Office of Foreign Disaster 
Assistance, which responds both to natural disasters, tsunamis, 
and so forth and also conflict situations.
    What the Administrator has proposed is reconfiguring and 
adding new offices; creating a new Office of Conflict 
Mitigation, a new Office of Military Affairs. These are the 
kinds of decisions that Mr. Hess will face, and exactly how we 
are going to configure that new bureau so that it best fits 
into the structure that Ambassador Pascual is creating.
    Currently there are in excess of 100 people in that Bureau. 
That is by our standard a pretty significant asset. There is an 
inner ring of about 100 people, and the question is how we are 
best going to configure those to be the best partner in the 
kinds of situations we have been describing.
    We have traditionally also maintained an outer ring along 
the lines of what Ambassador Pascual was describing earlier of 
reserves on call, teams of these kinds of experts who may be 
working for the U.S. Government in one crisis, but working for 
an NGO in the next crisis.
    We maintain rosters. We keep computer databases of their 
skill sets, so that if, in fact, we do need a food logistician 
in southern Sudan, we literally are able to search our 
databases and find an individual who has that kind of relevant 
experience.
    So we see the need both for an inner circle of U.S. 
Government employees who do this full time and are ready to 
deploy immediately and then an outer ring of reserves who we 
can call upon to supplement that.
    The Chairman. This leads me to a question of you, 
Ambassador, and that is: Are you working to develop joint 
contingency planning with Defense and USAID in southern Sudan? 
Can you describe how you are going about such planning, whether 
you have civilians ready to go? What is happening there 
generally?
    Ambassador Pascual. We very much are beginning a process of 
doing contingency planning and, in fact, not just contingency 
planning, but planning for things that have to happen today in 
southern Sudan, but even more broadly than that, how we look at 
Sudan in general.
    It is absolutely crucial that we have the capacity to look 
around--look at the full range of challenges that we are facing 
in Sudan in order to be able to bring together our policy in a 
way that really makes an impact and has a difference.
    It requires us to address immediate humanitarian needs. 
There is obviously a pressing and humanitarian and security 
situation in Darfur, where violence needs to be brought to an 
end. There are issues that need to be addressed in southern 
Sudan and in transition areas and in key flash points on 
transformation of security forces and demilitarization.
    All three of those things need to be done as a platform in 
order to create a basic foundation for stability and normalcy, 
so that people can actually start to have lives again. And then 
from that, we need to be able to build--we need to build in 
addressing the infrastructure for economy and social 
transformation. We need to build the capacity to actually have 
a government that is responsible to its people and which is 
transparent and uses its resources in an accountable and 
transparent way. And without that kind of government, it is 
going to be difficult for Sudan to succeed in peace.
    And finally we need to help build the capabilities and the 
capacities that exist in the south, so that this is not just an 
internationally driven activity, but, in fact, that the 
Sudanese have the capacity to bring this process forward into 
the long term.
    So what we are doing is bringing together with the National 
Security Council, with USAID, the Africa Bureau, and the State 
Department, with the Department of Defense, a core team that is 
looking at each of those areas. And for each of those areas we 
are identifying strategic priorities, we are identifying how to 
sequence the activities, we are identifying the resource 
requirements.
    As you might imagine, the resource requirements are huge, 
and we are asking very tough questions about what can we do 
within existing resources, where we can get international 
donors to pick up, what can be done by the resources which are 
held by the Government of southern Sudan.
    We are in the midst of this process right now. We are in 
the process of bringing it together so that we can present it 
to our deputies and allow them to review that, and from that 
then be able to make the judgments on what is necessary on how 
to address some of the resource gaps, which inevitably will 
arise from the process.
    The Chairman. Well, this is very important information. You 
are acutely aware, as anyone would be, of the calls daily from 
persons throughout the world as to what our response may be in 
Sudan. And the coordination you have described is critical in 
each of the areas of competence, as well as geographically, but 
we wish you success. And I wanted to try to illuminate that 
situation, which is there now.
    Let me ask about a potential situation, without being 
provocative. It is suggested from time to time that there will 
come a day in which the Government of Cuba changes. In a 
situation of this variety, as is often raised hypothetically, 
would we be prepared in our Government to assist the people of 
Cuba under those circumstances?
    There are many Americans who have all sorts of plans for us 
for Cuba informally. But at the same time this is going to 
raise an issue, I suspect, with whichever administration may 
face it over time. And that is not the only one of these 
situations, but it is one that is very close to us, one that is 
often commented on.
    What sort of capabilities do you envision your Agency, or 
those you are allied with, would have in the event that some 
type of planning was required, as well as humanitarian 
activity?
    Ambassador Pascual. Thank you. Again, an extremely 
important issue where we have an opportunity now to look ahead 
and be able to plan for the future. And we indeed have been 
engaged with my Office together with the Western Hemisphere 
Bureau and the State Department and USAID and the Department of 
Defense, as well as the Foreign Service Institute, the National 
Defense University in looking at this issue.
    It is, indeed, the policy of the United States that we seek 
a peaceful democratic transformation in Cuba. Last year, the 
President tasked Secretary Powell and Secretary Martinez to 
pull together a report, which was developed by the Commission 
on Assistance for a Free Cuba. That report looks at an 
extensive set of activities that are important to undertake to 
be able to support a transitional process, or to support a 
democratic Cuba when that opportunity arises.
    But the key challenge is, in fact, to be able to look at 
what kinds of steps are necessary after Fidel Castro's death to 
be able to really strengthen and support that transition to 
democracy so that it is not just a succession. And in order to 
do that, we have been working in policy roundtables and 
exercises to be able to learn lessons from other transition 
experiences.
    We have worked very closely with the individuals and 
experts who have been involved in Central and Eastern Europe in 
the former Soviet Union, because we learned a great deal there 
about political transition and economic transformation, about 
how to deal with intelligence services and security services 
and what kinds of things need to be asked, how to deal with 
security in those transformational situations and how to work 
with--effectively, with our allies in that environment.
    And so by bringing together that kind of core expertise, we 
have been able to put suggestions and ideas on the table that 
are now being factored into our policy process.
    We have also worked on simulation exercises that force us 
to look at different scenarios and ask those tough questions 
now, because we know whatever the scenario is that there are 
going to be tough questions. And better that we rehearse those 
today and understand how we might be able to respond.
    So we are actively engaged in this process right now, and 
it, I think, is making contributions not only to what we might 
do in the future, but greater enlightenment to the kinds of 
steps that we can take today to be able to prepare us for that 
eventuality.
    The Chairman. Well, thank you very much for that response, 
because it does indicate once again the forward looking aspects 
in your testimony. Jointly, gentlemen, you have mentioned Nepal 
and other countries that are engaged in change and that may 
require assistance. But this requires some thoughtfulness.
    General Sharp has said often that people who have language 
skills, cultural background, scholarships, understand the 
traditions and the people in ways that, maybe, not each one of 
our citizens may. We should find those Americans who have those 
talents.
    Let me ask you, General Sharp, and maybe Mr. Henry would 
have a comment on this. In your testimony, both of you have 
discussed a section in the Department of Defense authorization 
request to the Congress that the Defense Department be 
authorized to transfer, if necessary, $200 million in goods, 
services, and funding to the Bureau that is headed by 
Ambassador Pascual.
    Unfortunately, neither the Senate, nor the House 
congressional authorizing committees, have included this 
provision in their bills. So this leads to the question: Why 
the resistance?
    I think those of us involved in practical politics have 
some idea about the resistance, although, maybe technically 
there are some other reasons.
    Essentially, many times the defense committees, whether it 
be the House or the Senate, do not wish to see defense spending 
going elsewhere. They are reticent to do this. From the 
standpoint of those dealing with the State Department 
situation, it has been an unfortunate fact of life that the 150 
account has been perennially downsized whatever the year, and 
whatever the circumstances.
    We sort of start at the high-water mark here, and we are 
fighting all the way through the succeeding stages. Sometimes 
we are successful, if we can go to the floor and offer an 
amendment restoring all of that which has been lost in the 
process, and sometimes gaining some favor. This process is not 
new.
    On the other hand, what you have proposed is very 
important, the potential flexibility that is involved here. 
There is a mandate to transfer funds, but it does suggest that 
there may be value in doing that. Do you have some thoughts, 
General Sharp or Mr. Henry, about how we might reengage the 
problem or be more successful?
    Mr. Henry. Well, first of all, the thinking on the part of 
the administration is that this is something that is actually 
keyed at saving both American dollars, taxpayer dollars, but 
also hopefully, American lives.
    As I said in my statement, we have come to understand the 
criticality of early measures in taking and getting in and 
engaging on problems so they do not become crises and, then for 
us in the defense, so the crises do not become conflicts.
    If we find ourselves engaged in a conflict, then the rate 
of spending will be significantly higher and, again, we will be 
putting the lives at risk of American servicemen and 
servicewomen, so that is the reason why we have initiated this. 
We think that it is a good investment for all parties 
concerned. We look forward to working with all parts of the 
Congress to try to work with them on the reasoning behind this.
    It is not--the transfer is only based upon the fact that 
there would be a demonstrated need that would be agreed upon by 
both Secretaries to be able to do this. It is not something 
that will be done at all times, but it is a contingency, and 
that is the world that we live in in the Department of Defense. 
We have developed a standing Army in other branches of the 
military, because we realize the world is an unsafe place to 
live, and we have to exercise it from time to time. And that is 
what we are trying to work with the Congress and, obviously, 
the State Department and have that same sort of standing 
capability. And we think that as an adjunct to that is the 
ability to have this civilian reserve force, to have this 
ability to have this real surge capability to which the dollars 
would be applied.
    General Sharp. Just, very briefly, to add to Mr. Henry's 
answer is: We believe that as we fight this war on terrorism, 
we are going to have an enemy that moves around quickly, that 
crosses borders, that really is not in any location, that we, 
as the U.S. Government, need to have some pretty flexible 
ability to both be able to surge people, but also money and 
across departments in order to be able to try to fight and win 
this war on terrorism. That is going to be a critical component 
of it.
    So I think anything that the Congress can do to, you know, 
give the ability to all of these departments to be able to 
utilize their capabilities at the maximum as quickly as 
possible and utilizing the funding that Congress and the people 
of the United States have given and to be able to share that. 
And the more that we are of one organization between all these, 
I think the more that makes sense.
    The Chairman. This may be a question to be raised directly 
with Secretary Rumsfeld, but would it be helpful if I were to 
contact the Secretary for--and would he be prepared to argue 
strenuously the points that you have made with Senator Warner 
or the corresponding chairman in the House committee, because I 
think that type of intervention is likely to be required for 
there to be a change in mood in, at least, the defense 
committees.
    Mr. Henry. Secretary Rumsfeld, along with the rest of the 
Department, feels that this sort of capability is important. 
Earlier in response to another question, General Sharp talked 
about the idea of joint interagency. As we go into our 
Quadrennial Defense Review, this is one of the areas that we 
are actually looking for.
    We understand that the national security establishment that 
was developed in 1947 was one that was focused on what 
eventually became a cold war, and we have optimized that over 
the last half century in that direction.
    Here, we find ourselves faced with a different sort of war 
that we are engaged in. And we have to make some adaptions and 
modifications to our security structure. And as we see it, it 
is probably less stovepipes and more of what we have learned 
about in the Department of the inherent value of jointness, 
which we have reinforced over and over again, but most 
specifically in Afghanistan and Iraq, and the significant 
amount of value added you get when you are willing to work an 
interdependency--on interdependencies and accept those and work 
across lines. And so we think this is a first step, both the 
standing up of S/CRS, but also the funding mechanism to go in 
that direction.
    And so this is something that the Secretary is behind and 
we would expect to see similar recommendations and proposals 
coming out of the Quadrennial Defense Review about how we can 
do this across the Government.
    The Chairman. Well, that would be very helpful. I know that 
as you have opportunities to brief the Secretary, not only 
about this hearing but also about your general understanding of 
things, you can be helpful in that respect. We all will attempt 
to be if we work together on this.
    Mr. Kunder, let me ask--I have had the pleasure of meeting 
with 80 USAID mission directors who were in town a couple of 
weeks ago. I understand they also met with you and Ambassador 
Pascual, at one point during their 3-day meeting here in 
Washington.
    What reactions did you gauge from the mission directors to 
your Office and to the types of ideas that we are presenting 
today? Do you have any feeling, either of you, Mr. Kunder or 
Ambassador Pascual?
    Mr. Kunder. I think I would agree with what Lieutenant 
General Sharp said earlier that all employees of the U.S. 
Government, certainly in the foreign policy side, have to 
understand that we are engaged in a global war on terrorism.
    You know our cadre of senior leaders and many of them came 
into government in a different world, a more peaceful world. 
And many of them were engaged in what they would consider long-
term development or long-term improvements in human progress 
around the world. But certainly under the Secretary's 
leadership, Secretary Rice's leadership, and under Andrew 
Natsios' leadership, both have delivered strong and unequivocal 
messages that all of our team is, to some extent, engaged in 
the war on terrorism.
    I think there has been a broad acceptance of the importance 
of the work they are doing as part of that effort, whether they 
are doing children's survival programs in West Africa or they 
are on the front lines in Iraq or Afghanistan, they understand 
the need to be participants in that conflict and win that 
conflict. And, second, they also understand the importance of 
interagency coordination. This is something that comes second 
nature to them already, because they are part of each 
Ambassador's country team, in which they serve, on which we 
have military attaches and representatives of U.S. Government 
Agencies.
    So, I think it is not that difficult a transition for them 
to understand the kind of coordination that takes place at the 
country level and then moving that up to the interagency level 
in Washington. So far we have had excellent support for the 
whole concept.
    The Chairman. Good. Go ahead.
    Ambassador Pascual. If I could add briefly, we had an 
excellent dialog and exchange when I spoke to the group of 
mission directors. And one of the things that I really felt so 
strongly about is that all of them were recognizing that they 
are at the front lines of transforming realities on the ground, 
that they really are change agents, and that they play a new 
type of role in the implementation of U.S. foreign policy and 
security policy that is different from what we may have seen in 
the past. The centrality is a bit different.
    I think they all recognize the importance of having a 
multiple capacity of different resources brought together in an 
effective way. The military often says--uses the term that we 
have to look at all elements of U.S. power and how those 
elements are brought together on the ground to achieve certain 
effects on the ground.
    And, indeed, what I found from these mission directors is 
that they were focused on how to achieve those effects and how 
to coordinate and work with others, particularly some who have 
worked in Afghanistan or Iraq have seen some phenomenal 
challenges and have come to understand firsthand the importance 
of actually having that coordinated capability.
    And as was outlined a little bit earlier by Mr. Henry, 
particularly what we have seen in the provincial reconstruction 
teams, is a real model for the way that the military and 
civilians can work together, but the other thing that they 
emphasized is that the model works if you get civilians on the 
ground.
    And if there is one complaint, what we heard, was that it 
is absolutely crucial to have a greater capacity to get 
civilian capabilities on the ground more effectively, sooner in 
ways that people are prepared.
    And, if anything, this conversation, I think, has really 
highlighted the importance of having a real surge capability 
and funding that surge capability. What we have heard from our 
military colleagues is that that is the core business of the 
Department of Defense is to establish that surge capacity to 
train it, to exercise it, and then be able to deploy it.
    And what has been so difficult for us on the civilian side 
is to build that as part of the operational model that we have 
for all that we do that we have to have that surge capability, 
and we have to fund it, because if we do not fund it, we do not 
create it, we do not have the people, we do not train them, we 
cannot make it work.
    And I think all of us who have been working on these issues 
have come to that similar conclusion that were highlighted very 
much when you started this work in 2003 that we have to have 
the resources, the authorities, and the capabilities to 
actually be able to get on the ground quickly.
    The Chairman. I was inspired by the meeting with the 80 
directors. First of all, it was an education. We have 80 
different situations. We are serving that many--80 countries--
and, to borrow some of your language earlier, preventive 
medicine in a way; the success of many of these directors and 
their colleagues can make a profound difference in terms of the 
future of those countries. Perhaps a future without conflict 
and without bloodshed, even within the countries or from their 
neighbors.
    So, it was very interesting and the individual experiences 
that were expressed to me varied, as well as to their reactions 
to how their message is received back here by the 
administration, by the Congress and what have you. And so I 
appreciated it. I think they came altogether for 3 days. It was 
an important situation.
    Yes, sir.
    Mr. Kunder. If I might just say a word, sir. I think that 
is how we see the linkage. If there is any value added that we 
believe we, at USAID, can bring, it is in that transition from 
the crisis response when a country is falling apart, into the 
long-term improvement, because as we like to say: We want to 
get our soldiers home as quickly as possible, but we also want 
to make sure they do not have to go back--have to go back 5 
years later to the same place. That is when you get into the 
long-term improvements in healthcare and education and economic 
systems.
    If I could just add one final thought. I think you 
mentioned earlier the President's freedom agenda and Ambassador 
Pascual mentioned Cuba. I think it is another important lesson 
that the investments in human freedom and democracy are 
critical on both ends, on the input end and the output end.
    If we have open participatory societies and invest in 
building political parties and civil society organizations, we 
are less likely to have the societies fall apart into conflict.
    And then, if they do fall apart, what we have got to do is 
build democratic processes as we are trying to do in 
Afghanistan and Iraq, so that the long-term stability endures. 
And I think this is the linkage between the President's freedom 
agenda and the kind of work we are doing here, the critical 
link between democracy and governance and stability.
    The Chairman. And some of the work that your Agency, USAID, 
is doing hopefully may mean that American military personnel 
will not need to be involved in 80 countries or in any number 
at all to the extent that through thoughtful diplomacy and work 
on the ground, we are able to achieve these results for the 
people that are involved.
    Mr. Kunder. That would be our hope; yes, sir.
    The Chairman. Yes. Let me just say that, you know, prior to 
a number of talented people coming into Iraq, it was my 
observation during visits there with community groups and what 
have you, that some of our younger officers, military officers, 
were suddenly employed as they needed to be, in that situation, 
in capacities that might have been fulfilled by mayors, 
superintendents of schools, people who handle these civil 
capacities--and they did so remarkably well. Even in their home 
communities in Indiana or wherever they were from, they 
probably would not have been called upon to take that kind of 
responsibility.
    But nevertheless, it was not the responsibility they had 
anticipated. This is not where their training and background 
had led them. But the talents of our military people should not 
be underestimated, and we are grateful as they adapt to all 
these conditions. What we are talking about today is how we 
really have the reinforcements as ready reserve, or a cadre of 
people who are able, as opposed to a long lapse or a waiting 
time. Sometimes these engagements, even of our military people, 
are short lived. Their enlistments run out or what have you, 
their commitment.
    But let me just ask you, Ambassador, are you having trouble 
recruiting people for dangerous situations? And we have talked 
about going into harm's way today, and not just in situations 
that have been in the military conflict, but some others that, 
as a matter of fact, did have considerable amount of personal 
risk. And I am just curious about your experience in calling 
upon Americans to take up these posts.
    Ambassador Pascual. The willingness on the part of the 
American civilians to take up these risky assignments in order 
to be able to address what people believe is truly a national 
security interest has been phenomenal. And it is within the 
Government and it is outside of the Government. And, indeed, if 
we look at the nongovernmental community, at the people who 
have been willing to voluntarily go into these extraordinarily 
dangerous and complex situations, because they believe it is 
important to help save lives, to address humanitarian needs, to 
promote democratic transformation, to give people a chance to 
actually influence their future. And I believe that in doing so 
that they are not only advancing the prosperity and the 
prospects of that country, that they are advancing our own 
security, is truly remarkable.
    Within the U.S. Government and within the State Department 
we have had an all-out effort to ensure that we can indeed 
actually staff our Embassies in Afghanistan and Iraq and in 
other difficult posts. But the reality is that we need more 
people, and we have a limited number of foreign service 
officers, we have existing challenging diplomatic missions 
around the world. And one of the things that is not helpful to 
our long-term diplomacy is that in order to deal with today's 
challenges, today's immediate missions, that we simply strip 
away people from those other important diplomatic functions----
    The Chairman. Yes.
    Ambassador Pascual [continuing]. That you and others have 
fought to be able to get out there, so that we have the 
capacity to actually demonstrate an American presence abroad.
    So a key issue, frankly, in being able to recruit and 
recruit effectively, is actually to have the resources to 
extend our hand to that wider range of people outside of 
Government, those people who have the skills and the 
capabilities who are willing to either volunteer to participate 
in a reserve corp or to serve as contractors, a whole range of 
different ways in which we might be able to do this, but we 
have to have the resources to bring those individuals in, train 
them and give them the capability to actually put their good 
will to use.
    The Chairman. Well, that is a critical element of this, and 
hopefully one of the imports of this hearing will be to 
encourage our colleagues to understand that and provide you 
those resources.
    I can remember in this committee within the last 2 years--I 
would be hard pressed to name the date and the time--we 
discussed these so-called hardship positions out in our 
Embassies in the field. One reason this came up was that in 
some cases where there are very, very difficult diplomatic 
circumstances for the United States, extremely junior foreign 
service personnel were doing the best that they could, because 
it had been very hard to identify more senior personnel who had 
some experience and some background, who at that particular 
point in their lives and careers were willing to undertake 
these tasks.
    So this is the reason that I raise the question within this 
new initiative. We have been down the road before, and I can 
understand that situation with the careers of many persons in 
the foreign service, that after a while, they fear they have 
given a lot of time and thought to their country. They would 
like a situation that seemed less dangerous perhaps for 
themselves, for their families, for their careers and what have 
you, and sort of move on in other situations. But, 
nevertheless, this is a dangerous world, as you all have been 
pointing out.
    The kind of service being offered by persons not only in 
our military service, but in our diplomatic service, and now in 
this new joint affair often is dangerous. It is going into 
harm's way on behalf of all of us, who are, therefore, spared a 
great deal of agony in our lives and in our communities.
    Well, we just appreciate very much all the thoughtfulness 
you have brought to this hearing. You have been forthcoming and 
articulate in your testimony. I am certain it is helpful for 
public understanding of what you are doing.
    Let me just say that I would like to insert a statement of 
Senator Biden in the record. I am pleased to do so.
    [The prepared statement of Senator Biden follows:]

  Prepared Statement of Hon. Joseph R. Biden, Jr., U.S. Senator From 
                                Delaware

    Mr . Chairman, I commend you for convening this hearing today--and 
for your leadership on this issue. In December 2003, you came to me 
with the idea of convening a group of experts to address our ability to 
deal with reconstruction and stabilization crises--and I was pleased to 
join you in this effort.
    Since the end of the cold war, the United States has taken on 
stabilization missions once every 18 months, with an average duration 
of more than 5 years. We did it in Bosnia, Kosovo, East Timor, Haiti, 
Somalia, and now Afghanistan and Iraq to name a few. And, in the decade 
to come, whether we like it or not, we will do it again. Addressing the 
needs in countries that are on the verge of becoming failed states will 
continue to be one of our greatest challenges.
    Weak states are cracks in the very foundation of our international 
system. If left untended--or in other words, if we fail to respond 
adequately to stabilization and reconstruction crises--they can and 
they will, in my view, threaten the security and well-being of 
countries around the world, including the United States. They can 
become sanctuaries--as we have seen time and again--for terrorist 
networks, organized crime, and drug traffickers.
    For all of these reasons, we ignore failed states at our own peril. 
As Tom Friedman says, ``If you don't visit a bad neighborhood, it will 
visit you.''
    And, obviously, it is in our own best interest to act efficiently 
and effectively. We should not reinvent the wheel every time we are 
faced with a stabilization crisis--cobbling together plans, procedures, 
and personnel--as we have been doing. We need to be forward thinking, 
comprehensive, and strategic.
    That was the logic behind the legislation I was pleased to join the 
chairman in proposing in February 2004. Our bill envisions much of what 
has become a reality: A State Department office that draws on expertise 
from all civilian agencies, as well as the Department of Defense, to 
monitor potential crises, create plans and procedures to respond 
effectively, and efficiently mobilize people and resources.
    I appreciate that the administration has moved in this direction--
and I appreciate the work, specifically, that Ambassador Pascual has 
accomplished since his Office of Reconstruction and Stabilization was 
established at the State Department last summer. There has been solid 
progress over the past year--but, in my view, we are not where we need 
to be yet.
    I am interested in learning more about how all of you are working 
together, and your visions for the future. And we especially want to 
know what you need in the way of resources and help from Congress to 
get your critically important jobs done. Between the four of you, there 
is a tremendous amount of expertise in this room, and I thank all of 
you for being here today.

    The Chairman. Likewise, we will keep the hearing record 
open today in case there are other members, other colleagues, 
who might have statements or maybe have questions of you. And 
if they do, we would ask you to respond for the record.
    I thank all of you. And the hearing is adjourned.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


  Response of Hon. Ryan Henry to Question Submitted for the Record by 
                             Senator Lugar

    Question. What is the scope of the newly created Stabilization 
Office at OSD that reports directly to the Deputy Secretary? How does 
this Office interface with the State Department?

    Answer. On May 2, 2005, the Deputy Secretary approved the 
establishment of the Defense Reconstruction Support Office (DRSO) to 
provide a single DOD focus for coordination of the Department's 
operational support of U.S. reconstruction activities in Afghanistan 
and Iraq. This Office is located in Washington Headquarters Services 
(WHS) and its Director reports directly to the Deputy Secretary.
    The DRSO consolidates the functions of the Afghanistan Reachback 
Office and the Defense Support Office--Iraq. OSD Policy retains 
responsibility for representing the Department on Iraq and Afghanistan 
policy matters in the interagency. However the DRSO may engage directly 
with the State Department and other U.S. departments and agencies on 
pertinent operational matters to ensure the Department provides well 
coordinated and responsive operational support for U.S. Government 
elements engaged in Afghanistan and Iraq.
                                 ______
                                 

Responses of LTG Walter Sharp to Questions Submitted for the Record by 
                             Senator Lugar

    Question. Could you describe what elements of the Defense Science 
Board Summer Study ``Transition to and from Hostilities'' are currently 
being pursued by the Defense Department?

    Answer. The Defense Science Board (DSB) 2004 Summer Study on 
``Transition to and from Hostilities'' made recommendations for the 
Department of Defense and the U.S. Government. The Department of 
Defense has begun implementation, or is considering implementing, many 
of the DSB's study recommendations.
    For example, the Department of Defense is developing a stability 
operations directive for Secretary of Defense approval. Specific 
details are pending Secretary of Defense approval; however, we envision 
a policy where stability operations are a core capability--one U.S. 
military forces should be prepared to undertake. At such, stability 
operations will have attention and priority comparable to combat 
operations.
    Additional DSB study implementation examples include:

--Combatant commanders are incorporating stability operations into 
    their planning process and exercise scenarios.
--The Army has identified stability operations and irregular warfare as 
    two of its key focus areas in the coming years and is working with 
    the Marine Corps and other DOD components to develop concepts of 
    organization, such as modularity, that are flexible enough to meet 
    stability operations requirements.
--Joint intelligence and operations commands are being established at 
    most of the combatant commands, and formal intelligence campaign 
    plans are being developed to support military operations.
--The Under Secretary of Defense for Intelligence established the 
    Defense Open Source Council that is conducting a comprehensive 
    assessment of the use of open source information in the defense 
    intelligence cycle.
--Intelligence, Surveillance, and Reconnaissance (ISR) responsibilities 
    were consolidated under U.S. Strategic Command, which has named the 
    Defense Intelligence Agency as the Joint Force Component Command 
    for ISR.
--The Under Secretary of Defense for Intelligence has established a 
    defense human intelligence (HUMINT) management office.
--The Deputy Secretary of Defense has signed the Defense Language 
    Transformation Roadmap, directing each Service and combatant 
    command to designate Senior Language Authorities responsible for 
    language and regional expertise in their respective commands.

    In addition to the initiatives above, the Department of Defense is 
also supporting the development of capabilities in other departments 
and agencies, principally the State Department's Office of the 
Coordinator for Reconstruction and Stabilization (S/CRS).

    Question. Could you describe what elements of the Center for 
Strategic and International Studies Beyond Goldwater-Nichols Study 
(Phase I and Phase II) are currently being pursued by the Defense 
Department?

    Answer. The insights into defense reform and interagency 
integration have helped provide a valuable foundation for the 
Department of Defense as part of the ongoing Quadrennial Defense Review 
(QDR). The Center for Strategic and International Studies' (CSIS) 
proposals for defense reorganization, staff streamlining, and achieving 
interagency integration are being carefully analyzed, evaluated, and 
considered in the QDR Issue Process Team (IPT) for Roles, Missions, and 
Organizations. One working group of this IPT has been tasked 
specifically with evaluating overlapping functions within the 
Department of Defense and then developing and proposing organizational 
alternatives. Another Roles, Missions, and Organizations IPT working 
group is examining interagency operations and how to achieve more 
complete integration, particularly in the areas of homeland defense, 
stability and reconstruction, and civil affairs activities.

    Question. Do you believe that a study following up from the DSB and 
CSIS reports would be appropriate? What are your views on the merits of 
undertaking a single study to examine how best to develop in a 
complementary manner the capabilities and needs of the State and 
Defense Departments and USAID to carry out these missions? Should this 
be done by State and Defense jointly, or undertaken by an independent, 
nongovernmental organization?

    Answer. The DSB and the CSIS are in the best position to determine 
if they need to follow up on their respective reports. In general, the 
field of stabilization and reconstruction suffers from an overabundance 
of reports, not a lack thereof.
    The best way for the Department of State, the Department of 
Defense, and United States Agency for International Development (USAID) 
to develop capabilities in a complementary manner is for all three 
organizations to continue the dialog they have already begun. The 
Department of Defense has developed a close working relationship with 
the State Department's Office of the Coordinator for Reconstruction and 
Stabilization (S/CRS) and is developing a close relationship with 
USAID's new Office of Military Affairs (USAID/OMA).

    Question. Could you describe the concept of the Joint Interagency 
Coordination Group and how it is being developed? How do the State 
Department and USAID fit into the concept? EUCOM is reportedly already 
working with the State Department, USAID, and other civilian agencies. 
Can you describe how this is being structured at EUCOM and the other 
combatant commands?

    Answer. The ongoing War on Terrorism intensified the need for 
military activities to be closely aligned with U.S. diplomatic, law 
enforcement, financial control, and intelligence sharing endeavors. In 
the weeks following September 11, 2001, the Joint Staff gained approval 
from the Deputies Committee to establish a limited Joint Interagency 
Coordination Group (JIACG) capability in each combatant command. With 
participation from the Departments of State and Justice and the U.S. 
Treasury Department, this interim interagency planning capability has 
shown great value in prosecuting the War on Terrorism while offering 
numerous spin-off benefits to both military and civilian agencies.
    There is currently no standardized structure for the JIACG. Its 
size and composition depends on the specific operational and staff 
requirements at each combatant command.
    The emerging JIACG concept calls for an interagency team to deal 
with a full spectrum of actions including peacetime engagement, crisis 
prevention, major combat operations, and stabilization operations. The 
full-spectrum JIACG would be an element of each geographic combatant 
commander's staff and would be responsible for establishing and/or 
enhancing regular, timely, and collaborative working relationships 
between other government agencies (e.g., Department of State, Federal 
Bureau of Investigation, U.S. Treasury Department, USAID, etc.) to more 
efficiently and effectively apply the instruments of national power in 
support of the U.S. National Security Strategy.

                                  <all>

</pre></body></html>
